<html>
<title> - UNFINISHED BUSINESS IN SOUTHEAST EUROPE: OPPORTUNITIES AND CHALLENGES IN THE WESTERN BALKANS</title>
<body><pre>[Senate Hearing 111-660]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-660

 UNFINISHED BUSINESS IN SOUTHEAST EUROPE: OPPORTUNITIES AND CHALLENGES 
                         IN THE WESTERN BALKANS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
61-706 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        









                            C O N T E N T S

                              ----------                              
                                                                   Page

DeMint, Jim, U.S. Senator From South Carolina....................    24

    Prepared Statement...........................................    24


Gordon, Hon. Philip, Assistant Secretary of State for Europe And 
  Euasian Affairs, Department of State, Washington, DC...........     4

    Prepared statement...........................................     7


Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     1


Vejvoda, Ivan, Executive Director, Balkan Trust for Democracy, 
  The German Marshall Fund of The United States, Belgrade, Serbia    38

    Prepared statement...........................................    40


Vershbow, Hon. Alexander, Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense, 
  Washington, DC.................................................    12

    Prepared statement...........................................    15


Voinovich, Hon. George V., U.S. Senator From Ohio................     3


Volker, Hon. Kurt, Senior Fellow And Managing Director, Center On 
  Transatlantic Relations, Johns Hopkins University, Washington, 
  DC.............................................................    30

    Prepared statement...........................................    33

                                 (iii)

  

 
 UNFINISHED BUSINESS IN SOUTHEAST EUROPE: OPPORTUNITIES AND CHALLENGES 
                         IN THE WESTERN BALKANS

                              ----------                              


                        TUESDAY, APRIL 14, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen, presiding.
    Present: Senators Shaheen, DeMint.
    Also present: Senator Voinovich.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone. Thank you for 
joining us for what I hope will be a very insightful discussion 
about the current political, economic, and security trends in 
the Western Balkans.
    I'm very pleased to be joined this afternoon by a former 
member of the Senate Foreign Relations Committee, Senator 
Voinovich, who has been a long-time champion of the Western 
Balkans.
    Today we have two very impressive panels and I will reserve 
introductions for a little later, after I've given an opening 
statement.
    In February Senator Voinovich and I made an extensive trip 
to Southwest Europe where we had the opportunity to sit down 
with military and political leaders from across the Western 
Balkans. We were struck by the progress that has been made and 
we reiterated our commitment to support for continued U.S. 
engagement in the region. Most importantly, we expressed our 
joint vision of a Western Balkans region that is fully 
integrated into the EU and NATO.
    Though we will likely focus much of our time today on the 
challenges that remain in the region, I think it's important to 
begin by putting the current situation in context. It was only 
15 years ago that the Dayton Peace Agreement brought an end to 
the war in Bosnia and it was only 10 years ago this spring that 
NATO bombs fell on Belgrade.
    When you consider the very recent history of divisiveness 
and violence that befell this region, it is difficult to 
overstate the impressive successes that we've seen there over 
the past decade. Slovenia is a thriving member of the EU and 
NATO. Croatia, already a NATO member, is on the doorstep of the 
EU. Serbia's current government has shown impressive leadership 
in anchoring Belgrade's future to the West and most recently 
made a very important notable attempt to turn the page on a 
difficult past by passing a resolution apologizing for the 1995 
massacre at Srebrenica.
    In addition, several countries of the Western Balkans have 
gained visa liberalization within Europe, and most have a 
realistic path toward NATO and EU membership. The trends are 
positive throughout the region, and many countries should be 
commended for their commitment to tackling political, economic, 
and military reforms.
    Despite these positive signs in the region, some major 
concerns remain. First and foremost is the situation in Bosnia 
and Herzegovina. Many of us here know well the political 
challenges in Bosnia and the need for significant reforms. 
Unfortunately, the current election season does not bode well 
for serious internal political change.
    A well-timed strong commitment to eventually bring Bosnia 
into NATO's sphere through the Membership Action Plan could 
undermine those leaders who would exploit fear and uncertainty 
during this election process.
    Now, I certainly understand that some are reticent to be 
seen as rewarding the current Bosnian leadership. However, what 
we heard in the region was unanimous agreement that a strong 
commitment from NATO at this time could help propel Bosnia's 
leadership into action. At the very least, hopefully the people 
of Bosnia will see a realistic path forward, a possible work 
plan or roadmap.
    Another critical challenge for the region is the situation 
between Kosovo and Serbia. There's no question that the dream 
of the united Europe will not be realized without Serbia. To 
its great credit, the leadership in Belgrade has demonstrated 
their commitment to Western institutions and has made EU 
membership its top foreign policy priority.
    As Vice President Biden said during his trip to Belgrade, 
``We continue to agree to disagree'' over Kosovo and although 
recognition of Kosovo should not be a precondition of our 
ongoing support for Serbia eventually becoming a member of the 
EU, it's evident that the disagreement over Northern Kosovo 
will remain a stumbling block for future integration prospects.
    With an expected opinion from the International Court of 
Justice this year on Kosovo's independence, it's critical that 
we begin to lay the foundation now for finding a creative, 
pragmatic, and sustainable resolution between Kosovo and 
Serbia.
    Finally, I want to express concern over what we heard in so 
many capitals that we visited about the widely held perception 
of so-called EU enlargement fatigue. The worry that there will 
be no viable membership path for the countries of this region 
could undermine their reform agenda and stop the positive 
momentum we've seen in recent years.
    Deputy Secretary of State [James] Steinberg's recent trip 
to the region with the Spanish Foreign Minister, whose country 
holds the rotating Presidency of the EU, sends an important 
signal that both the United States and the EU will remain 
robustly engaged in the region.
    If we're to help keep these countries on the path toward 
European integration, the United States will need to continue 
to work closely with Brussels and the capitals of our European 
allies. Over 60 years ago, after two devastating World Wars on 
the European Continent, the United States and our transatlantic 
allies made the historic commitment to bring about a Europe 
that is whole, free, and at peace. Our pledge to rebuild this 
continent has come with extraordinary effort, time, and cost, 
and yet it still remains incomplete.
    We have an opportunity to help the people of Southeast 
Europe finally turn the page on their past and start a new 
chapter in their shared history. We've invested far too much in 
this effort to let it slip now.
    I look forward to hearing from our witnesses about their 
ideas and plans for accomplishing this important vision, and 
now I'm happy to turn over to Senator Voinovich the opportunity 
to make an opening statement.

            STATEMENT OF HON. GEORGE V. VOINOVICH, 
                     U.S. SENATOR FROM OHIO

    Senator Voinovich. Thank you, Senator Shaheen. I am really 
very happy to be given this opportunity to come back and visit 
the Foreign Relations Committee and appreciate your making it 
possible for me to sit with you in what I consider to be a very 
important hearing on the unfinished business in Southeast 
Europe.
    I'd also like to thank the chairman of the committee, 
Ranking Member Lugar, and Senator DeMint, for allowing me the 
courtesy of participating at today's hearing.
    This is going to be my last year in the Senate, and many of 
you know that I've been working on Southeast European issues 
since my arrival to the Senate and, quite frankly, before that 
as, not officially, but as Governor of the State of Ohio, and I 
am truly heartened that Senator Shaheen, as chairman of the 
European Subcommittee, has provided some wonderful leadership 
in this area and is as familiar with it as I have been, and I'm 
grateful to be able to publicly to thank her for the time that 
we spent together there which involved, I think, six countries 
and 26 meetings; it was very, very worthwhile.
    During the time that we were there, we talked about 
constitutional reform and expedited map status for Bosnia, the 
need to maintain KFOR troop levels in Kosovo given the 
impending International Court of Justice decision on Kosovo 
independence, and the need for an expeditious and amicable 
resolution of the Macedonia--the FYROM (Former Yugoslav 
Republic of Macedonia)--name issue so that we can quickly 
integrate that country into the European atlantic institutions.
    During all our meetings, what was made clear is the 
security, stability, and economic well-being of the region. It 
was very interesting. I met yesterday with businessmen that 
have been in it for about 15 years and talked about our visit 
there, and they applauded the fact that we continue to work to 
make sure that the right infrastructure is there. They're as 
much concerned about some of this as we are because they've 
worked so hard. They would not like to see black holes that 
just don't seem to be going anywhere and would not be part of 
our vision to get everyone into NATO and into the European 
Union.
    We have some distinguished witnesses here today. I welcome 
Ambassador Vershbow here and Assistant Secretary Philip Gordon. 
We had a chance to meet when we were in Brussels, and the two 
other witnesses that we're going to have, Ivan Vejvoda was at 
Brussels and Kurt Volker was with us 2 years ago, and so we're 
appreciative of your being here today.
    I'd like to underscore the positive comments that the 
chairman made in regard to what's happened in the region. It's 
almost miraculous. One of the great days of my life was to be 
involved in a panel with the two presidents, Josipovic from 
Croatia and Tadic from Serbia, and the man that's in charge of 
European Enlargement, but the thing that really made an 
impression on me was here were the President of Serbia, the 
President of Croatia sitting on the same platform together, 
both talking about how they were going to try to work to make 
sure that things work out in Bosnia, both talking about how 
they're going to try to work together to improve the 
environment in the region and that was supported from the 
meetings that we had with others throughout the region.
    It was very interesting. Everyone was interested in their 
particular country, but everyone understood that there was this 
symbiotic relationship among the countries that were there and 
that the more they were able to cooperate with each other the 
better off all of them were going to be which is something that 
I've dreamed for for a long period of time.
    So, Madam Chairman, thank you very much for giving me this 
chance to sit here; I'm anxious to hear from our witnesses.
    Senator Shaheen. Thank you very much, Senator Voinovich, 
and let me just recognize some of the ambassadors who are in 
the audience. Maybe you could just indicate who you are when I 
announce you so that I know you're in the audience. I just am 
not sure where you are.
    We have the Croatian Ambassador right in front. Thank you. 
The Macedonian Ambassador. The Serbian Ambassador. Bosnian 
Ambassador. Montenegrin Ambassador. Thank you all very much for 
joining us this afternoon. Oh, I'm sorry. Kosovo Ambassador. 
We'll have to improve on our briefings from now on.
    As Senator Voinovich has indicated, on our first panel we 
have the Honorable Philip Gordon, who is the Assistant 
Secretary of State at the Bureau of European and Eurasian 
Affairs, and the Honorable Alexander Vershbow, the Assistant 
Secretary of Defense for International Security Affairs.
    These officials are responsible for coordinating U.S. 
policies in the Balkans Region. Both have spent their long and 
distinguished careers working extensively on European affairs.
    Thank you both for coming. We're pleased to have you in 
front of this subcommittee and we look forward to your insights 
and ideas on this important region.
    Ambassador, Assistant Secretary Gordon, would you like to 
begin?

 STATEMENT OF HON. PHILIP GORDON, ASSISTANT SECRETARY OF STATE 
     FOR EUROPE AND EUASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Gordon. Sure. Thank you very much, Chairwoman Shaheen.
    It's a pleasure to be here, and I want to thank you for 
inviting me to discuss our policy toward the Western Balkans, 
what the committee has rightly defined as unfinished business.
    This is a region that we consider to be crucial for 
Europe's future. It is a region that has been the focus of 
continued intensive engagement by the Obama administration. I 
look forward to updating you on our efforts.
    I also want to acknowledge the presence here of Senator 
Voinovich who, as already noted, with whom I had an excellent 
meeting in Brussels a couple of weeks ago on the very subject 
that we are discussing today.
    Senator, I think everybody in this room knows that your 
leadership on United States policy toward the Balkans has been 
instrumental in the past couple of decades in moving this 
region toward peace and democracy. We're all grateful to you 
for that.
    I welcome the opportunity to work with Chairwoman Shaheen, 
Senator DeMint, and other members of the committee to build on 
the legacy that you have left.
    The recent trip that Senator Voinovich and Senator Shaheen 
took to the region highlighted, as they summarized in their 
opening statements, both the progress the region has made as 
well as the challenges that remain, and I look forward to 
discussing both of those today.
    United States objectives in the Western Balkans are bound 
up with the historic work of building a prosperous, democratic, 
unified, and secure Europe. This is a goal that has been 
pursued with determination and vision by generations of 
Europeans and Americans--Americans from both sides of the 
political spectrum.
    The last two decades have witnessed extraordinary success 
as the nations of Central and Eastern Europe have joined the 
European Project, but this project is not yet complete. It must 
extend to all countries across the Continent and that includes 
the Western Balkans. We believe the path to completing this 
project for the Balkans is through integration into Europe's 
political and economic institutions.
    The progress we have seen during the last 10 years is 
testament to the power of sustained outside engagement, 
internal political reform, and the process of EuroAtlantic 
integration.
    When I served in government in the late 1990s, alongside 
Assistant Secretary Vershbow in the Clinton administration, war 
in Bosnia was still a fresh memory, and Kosovo was consumed by 
violence and so-called ethnic cleansing. Today, following a 
decade of hard work, we have witnessed dramatic political and 
social transitions in both places.
    With Montenegro's peaceful separation from Serbia in 2006 
and Kosovo's declaration of independence in 2008, the final 
chapter in the breakup of the former Yugoslavia was closed. Now 
the nations of the Balkans are on the path toward integration 
into Europe's community of political and economic freedom. 
Nearly every country in the Balkans has taken steps toward EU 
membership.
    Croatia has moved forward in its EU accession negotiations. 
Macedonia is a candidate and Serbia and Albania have submitted 
membership applications. Countries of the region are also well 
on their way to integration within NATO. Croatia and Albania 
became members of NATO in 2009. Macedonia is on NATO's doorstep 
and will receive an invitation to join as soon as the dispute 
over its name is resolved.
    At the end of last year, Montenegro embarked on a 
membership action, plan and Bosnia will do so when it completes 
the necessary reforms. Though the progress we have seen is 
encouraging, there remains substantial distance to travel, and 
I would like to just mention three important challenges to 
completing the integration of the Western Balkans into the 
EuroAtlantic community: The political situation in Bosnia and 
Herzegovina, Kosovo's stabilization, and the ongoing dispute 
between Greece and Macedonia over the latter's name.
    We are determined to move Bosnia along the path of 
political reform. We will work alongside the EU to continue the 
dialogue on reform, to protect the integrity of the Dayton 
Agreement in Bosnia and state institutions, and to promote a 
productive atmosphere leading up to the October 2010 national 
elections in Bosnia.
    This is the message that Deputy Secretary of State Jim 
Steinberg, alongside Spanish Foreign Minister Moratinos, took 
to Sarajevo just last week. Bosnia's political leaders have, so 
far, not demonstrated the political will necessary to advance 
reforms. However, we know that Bosnia's citizens, especially 
its young people, want to be part of Europe and to take 
advantage of all the opportunities that come with that, 
including travel, education, and commerce. It is to them that 
Bosnia's leaders are ultimately answerable.
    Kosovo has come far in its 2 years of independence but has 
much work to do. Sixty-six countries across the world have now 
recognized that it is a sovereign and independent state. 
Kosovo's independence is irreversible. The important task of 
decentralizing government must continue. The protection of Serb 
religious and cultural sites remains an important priority that 
will have an impact on the success of decentralization and 
interethnic relations throughout Kosovo.
    Kosovo's Government must also move aggressively to improve 
the rule of law in the country by passing and implementing 
critical legislation that will strengthen Kosovo's 
institutions, modernize its judicial process, and update its 
legal codes and in line with democratic standards. On the 
economic front, the Government must implement the reforms 
necessary for the private sector to grow.
    Serbia also has an important role to play on issues that 
will have practical benefits for the people of Kosovo. Dialogue 
and cooperation to address practical day to day issues, such as 
electricity supply, customs, and courts, are in everyone's 
interests and will improve the lives of all people in Kosovo, 
including Kosovo's Serbs.
    Supporting Macedonia's integration into NATO and the EU 
remains a vital element in our efforts to promote peace and 
stability in the Balkan region. To bring this about, the 
ongoing name dispute with Greece must be resolved as soon as 
possible.
    We are encouraged by bilateral contacts at the highest 
levels in recent months to build confidence and to make 
progress on this issue. In the interests of both countries and, 
indeed, in the stability of the entire region, leaders in both 
Macedonia and Greece must now take bold and decisive action to 
resolve this issue once and for all.
    Despite the challenges that remain, the Obama 
administration remains confident that, with close coordination 
with our European partners and the willingness of regional 
leaders to make the right choices, the Western Balkans can 
complete their path towards EuroAtlantic integration.
    Credible prospects of membership in the EU and NATO remain 
the most powerful incentive for continued reforms. To ensure 
the positive effect of these incentives continues, we must not 
compromise on the high standards we expect of prospective EU 
and NATO members.
    Ultimately, of course, the burden of achieving EuroAtlantic 
integration and through it security and prosperity lies with 
the leadership and the people of the Western Balkans. If the 
countries of the Western Balkans are willing to make the hard 
choices necessary, the United States, the Obama administration 
will stand with them.
    Madam Chairwoman, Senator Voinovich, thank you for this 
opportunity, and I look forward to responding to your 
questions.
    [The prepared statement of Mr. Gordon follows:]

  Prepared Statement of Hon. Philip H. Gordon, Assistant Secretary of 
     State for European and Eurasian Affairs, Department of State, 
                             Washington, DC

    Chairwoman Shaheen, Ranking Member DeMint, members of the 
committee, thank you very much for inviting me here today to discuss 
U.S. policy toward the Western Balkans. This is a region that is 
crucial to Europe's future. For that reason, it has been the focus of 
continued and intensive engagement by the Obama administration and I 
look forward to updating you on our efforts.
    Today, I would like to do four things. First, I would like to 
explain why the integration of the Western Balkans into the Euro-
Atlantic community is a high priority for the United States. Second, I 
will outline the progress we have seen in recent years in the region. 
Third, I will describe challenges that remain in the region--in 
particular, the absence of political compromise in Bosnia, the 
stabilization of Kosovo, and the dispute between Greece and Macedonia 
over the latter's name. Finally, I would like to describe policies that 
the administration will pursue, in close coordination with our European 
partners--and in consultation with Congress--to achieve our long-term 
objective of successfully integrating the region into the Euro-Atlantic 
community.
           the western balkans and euro-atlantic integration
    Our objectives in the Western Balkans are bound up with the 
historic work of building a democratic, prosperous, unified, and secure 
Europe. This is a goal that has been pursued with determination and 
vision by generations of Europeans and Americans. The last two decades 
have witnessed extraordinary success as the newly free nations of 
Central and Eastern Europe have joined the European project. But it is 
a project that is not yet complete. It must extend to all countries 
across the continent, and that includes the Western Balkans. We have a 
vision of a democratic, peaceful, and prosperous region and we believe 
the path to achieving this vision for the Balkans is through 
integration into Europe's political and economic institutions.
    Perhaps the best way to understand the logic of this approach is to 
briefly consider the troubled history of this part of Europe. Consider 
what Southeastern Europe looked like at both the beginning and end of 
the 20th century. The Balkan wars preceding World War I and those of 
the 1990s saw the region racked by ethnic rivalry, hypernationalism, 
and bloody wars. These conflicts demonstrate the stakes of politics in 
the region--for the citizens who live there and for outside powers that 
were inevitably drawn in. Though the experience of the 1990s differs in 
many ways from that of pre-World War I Europe, I think it is fair to 
say that the fundamental problem that lay behind this history of 
conflict was the mismatch between geopolitical and ethnic boundaries 
and the absence of adequate political mechanisms to deal with this 
mismatch. What this difficult history teaches us is that attempts to 
resolve this contradiction through force are doomed to foster only 
further conflict and violence.
    Other parts of Europe have faced these same challenges, and the 
experience of Western Europe after World War II and Eastern Europe 
after the cold war demonstrates that there is another and a better way: 
the path of political and economic integration. The twin pillars of 
this process are NATO and the European Union. Progress for the 
continent has come from transnational cooperation and institutions that 
guarantee the rights of citizens, promote economic freedom, ensure the 
inviolability of borders, and provide a reliable forum for the peaceful 
resolution of disputes. Moreover, the opportunity for political 
engagement that crosses national borders reduces the salience and 
pressure of ethnic and regional disputes within nations. That is the 
promise of the project of European integration: the peaceful resolution 
of disputes through a common political enterprise and shared wealth and 
opportunity through a common market.
    The lesson of the 1990s is that significant portions of 
Southeastern Europe did not share in this experience and we saw the 
tragic human consequences. The United States and European countries and 
institutions have an essential role to play in engaging with the region 
in a strategic and sustained manner. But the responsibility ultimately 
lies with the countries of the region themselves who must do the hard 
political work of reform and reconciliation.
                            progress to date
    The progress we have seen during the last 10 years is testament to 
the power of sustained outside engagement, internal political reform, 
and the process of Euro-Atlantic integration. When I was last in 
government, in the late 1990s during the Clinton administration, war in 
Bosnia was still a fresh memory and Kosovo was consumed by violence and 
ethnic ``cleansing.'' A decade of hard work has brought us much closer 
to realizing our goal of including the Western Balkans in a peaceful 
and democratic Europe. All of the countries of the region have 
undergone dramatic political and social transitions in recent years. 
With Montenegro's peaceful separation from Serbia in 2006 and Kosovo's 
declaration of independence in 2008, the final chapter in the breakup 
of the former Yugoslavia was closed. Now, nearly every country in the 
region has taken concrete steps toward integration into Euro-Atlantic 
structures.
    Two years after independence, Kosovo's leadership has made 
tremendous progress. The Government of Kosovo is building roads and 
schools as well as ministries and agencies. Two thousand nine was a 
year of growth and consolidation for Kosovo's institutions, marked by 
the birth of the Constitutional Court and the success of the first 
democratic elections managed by Kosovo's Central Elections Commission. 
Kosovo Serb turnout in the newly established Serb-majority 
municipalities was significant, and four new ethnic Serb mayors were 
elected. Kosovo and Macedonia also reached a historic agreement 
demarcating their shared border and opened full diplomatic relations. 
Kosovo and Montenegro have also established full diplomatic relations.
    The EU is a crucial partner to the United States in our efforts to 
keep Kosovo on the path of reform and progress. We were pleased to see 
the European Commission's October 2009 strategy paper, which set forth 
practical measures that underscore Kosovo's European perspective and 
will help to ensure Kosovo moves forward along with other countries in 
the Western Balkans. We appreciated EU High Representative Ashton's 
recent visit to Kosovo to reinforce the message that it, too, has a 
future in the EU, along with its neighbors in the region, and that the 
EU is working with Kosovo toward visa liberalization and an interim 
trade agreement. The United States is proud to contribute personnel to 
the European Rule of Law mission, EULEX, deployed in December 2008, 
which is now building capacity in Kosovo's police, customs, and 
judicial institutions. Because of advances in establishing peace and 
stability, NATO's Kosovo force has begun a phased process to drawdown 
its forces.
    This year, Bosnia and Herzegovina will mark 15 years since the 
genocide at Srebrenica and the subsequent signing of the Dayton Peace 
Accords. Bosnia has made significant progress addressing the problems 
and challenges that are the legacy of the war. Today, Bosnia has a 
single military, is a member of NATO's Partnership for Peace, and has 
taken the first major step on the road to EU membership by signing a 
Stabilization and Association agreement with the EU.
    Serbia has elected a pro-European, democratic government, which is 
moving to institute rule-of-law and market reforms and pursuing 
improved relations with its neighbors--with the important exception of 
Kosovo. The Serbian National Assembly passed a resolution on March 31 
condemning the crimes committed at Srebrenica and calling for the 
capture of war crimes fugitive Ratko Mladic. In addition, we were 
pleased to see Serbia take three significant steps toward EU 
integration in 2009. In addition to the EU decision to extend visa-free 
travel in the Schengen zone to Serbian citizens--as well as Macedonians 
and Montenegrins--Serbia's Interim Trade Agreement with the EU was 
unfrozen, and Belgrade submitted its EU membership application; these 
actions all represent positive signs of Serbia's progress on its 
European path. We understand the EU will review Serbia's Stabilization 
and Association Agreement later this year, perhaps as early as this 
summer.
    We also support Albania's full integration into the Euro-Atlantic 
fold. While we believe the Albanian Government should do more to combat 
corruption, and we hope to see an end to the country's parliamentary 
stalemate, Albania has played a constructive role in the region and 
beyond, by engaging ethnic Albanians in the region, bringing about 
reconciliation of Albanian and Serbian communities, by renewing high-
level political exchanges with the Government of Serbia after a 5-year 
hiatus, and by supporting Serbia's and Kosovo's Euro-Atlantic 
integration. Albania has also just submitted its answers to the 
European Commission's membership questionnaire.
    Croatia is far along in its EU accession negotiations and we are 
paying close attention to efforts to resolve the Slovenia-Croatia 
border dispute. The United States supports Croatia's European Union 
candidacy. We hope and expect Croatia can complete negotiations this 
year. If an accession treaty is ratified quickly, Croatia might enter 
the EU in early 2012. Of course, this timeline is based upon Croatia's 
maintaining its pace of reform, including continuing its cooperation 
with the ICTY and following through on recent commitments to ratchet up 
the fight against corruption.
    The countries of the region have also taken steps toward 
integration into NATO. Albania and Croatia joined the Alliance in 2009. 
Macedonia will receive an invitation to join NATO as soon as the 
dispute with Greece over its name is resolved. Montenegro was invited 
to enter the Membership Action Plan (MAP) at the December 2009 NATO 
Ministerial and will start its first MAP cycle this fall. We would like 
to see Bosnia's candidacy for NATO membership move forward. As 
Ministers noted in December, Bosnia will join MAP once it achieves the 
necessary progress in its reform efforts. Holding countries to their 
reform commitments is of fundamental importance to the integrity of the 
membership process. In the interim, we and our NATO allies will support 
and assist Bosnia's Government to make the necessary changes.
    The door to NATO remains open for Serbia. We were pleased when 
Serbia appointed an ambassador and military representative to NATO last 
year and we look forward to the implementation of an information 
security agreement that will enable the opening of Serbia's mission to 
NATO in 2010. We also hope Serbia will take a more active role in the 
Partnership for Peace Program, which it joined in 2006, to complement 
our very robust bilateral military-to-military contacts. Serbia joined 
the South East Defense Ministerial in 2009, which should lead to 
increased regional engagement. We've also encouraged Serbia to seek 
opportunities to participate in international peacekeeping efforts.
    Finally, let me note that almost all countries in the region are 
contributing forces to help advance stability in other regions of the 
world, including to the International Security Assistance Force (ISAF) 
in Afghanistan. For those countries still aspiring to join NATO, their 
ISAF involvement is a tangible expression of their willingness to take 
up the burden of international security.
                          remaining challenges
    Though the progress we have seen is encouraging and demonstrates 
how far the Western Balkans have come, there still remains substantial 
distance to travel before the region is fully integrated into the 
fabric of European and Euro-Atlantic institutions. Addressing the last 
remaining obstacles to full Euro-Atlantic integration is the 
responsibility of leaders in the Western Balkans and it is also the 
object of coordinated U.S. and European engagement in the region. I 
will focus my remarks on three principal issues which are of the 
greatest concern to the United States and whose resolution can make the 
greatest difference to the region's prospects for joining the Euro-
Atlantic community: the political situation in Bosnia and Herzegovina, 
Kosovo's stabilization, and the ongoing dispute between Greece and 
Macedonia over the latter's name.
Bosnia
    For the better part of the last 4 years, Bosnia's political leaders 
have not demonstrated the political will necessary to advance reforms. 
They have been stuck in a vicious cycle where narrow ethnic and short-
term personal political interests have trumped shared, long-term 
objectives that would benefit all of Bosnia's communities. During his 
May 2009 speech to the Parliament of Bosnia and Herzegovina, Vice 
President Biden emphasized the need for Bosnian authorities to work 
together across ethnic and party lines so that Bosnia could function as 
a single, sovereign state. Last October we and the EU started intensive 
consultations with the political party leaders in Bosnia--the so called 
Butmir process, named for the military base where the talks began. The 
goal of this initiative was to reach consensus among the parties to 
improve the functionality of the state so as to position Bosnia for EU 
candidacy and the NATO membership process, and resolve the so-called 5-
plus-2 objectives and conditions established by the Peace 
Implementation Council for closing the Office of the High 
Representative. It was not an attempt to radically change Dayton, 
create a centralized state, or alter Bosnia's two-entity structure. But 
the initiative would resolve basic inconsistencies between the Dayton 
constitutional framework and the European Convention on Human Rights, 
give the Bosnian state the clear lead on matters related to EU 
accession, and improve efficiency and effectiveness of decisionmaking--
all of which are needed for Bosnia to move closer to NATO and the EU.
    The parties regrettably have not found a way to move the process 
forward, and we are now entering an election season, making prospects 
for compromise and agreement all the more challenging. Nevertheless, we 
are making clear to Bosnian party leaders that the election is not an 
excuse to do nothing and that they have an obligation to work in the 
best interests of their citizens. This is the message Deputy Secretary 
Jim Steinberg, along with Spanish Foreign Minister Miguel Moratinos, 
took to Sarajevo last week. We are determined, along with the EU, to 
continue the dialogue on reform, protect the integrity of the Dayton 
Agreement and Bosnian state institutions, and promote a productive 
atmosphere leading up to the October 2010 national elections in Bosnia 
and beyond. Ultimately, however, the burden of achieving Bosnia's 
aspirations rests on Bosnia's political leaders and their willingness 
to compromise. If they choose not to do so, they will have to explain 
to their voters why Bosnia's neighbors are moving ahead, while Bosnia 
is left behind. Bosnia's citizens, especially its young people, want to 
be part of Europe and to take advantage of all the opportunities that 
come with that, including travel, education, and commerce, and it is to 
them that Bosnia's leaders are answerable.
Kosovo
    Sixty-five countries across the world have recognized Kosovo as a 
sovereign and independent state--Kosovo's independence is irreversible. 
Kosovo has come far in its first 2 years of independence, but has much 
work to do. We are working closely with Kosovo's Government to address 
a range of remaining challenges. The important task of decentralizing 
government must continue. To succeed, the government must step up its 
outreach to Kosovo's Serb community, including in northern Kosovo, to 
outline the benefits of decentralization, which will bring governance 
closer to the people. The government must also ensure that 
municipalities have all the support they need to succeed in exercising 
their new functions and providing services to citizens. The protection 
of Serb religious and cultural sites remains an important priority that 
will have an impact on the success of decentralization and interethnic 
relations throughout Kosovo. Getting decentralization right will help 
lay the groundwork for a prosperous, democratic future for all of 
Kosovo's citizens.
    Strengthening rule of law is a critical priority for Kosovo; in 
fact it is the key to success in other areas. The Kosovo Government has 
begun to build the legal framework and judicial institutions for a 
stable, successful justice system. But the government must move 
aggressively now to tackle remaining deficits by passing and 
implementing critical legislation that will strengthen Kosovo's 
institutions, modernize its judicial process, and update its legal 
codes in line with democratic standards. The government must take 
energetic steps to root out corruption and fight organized crime, in 
close cooperation with the EULEX Rule of Law mission. With these 
reforms in place, Kosovo can continue its steady progress toward 
fulfilling its promise as Europe's newest country.
    On the economic front, the government must implement the reforms 
necessary for the private sector to grow. Here Kosovo is particularly 
challenged by a legacy of socialism and strife, with high unemployment, 
low investment rates, and a relatively small economic base on which to 
build. We are working closely with the Kosovo Government, the EU, and 
other international partners to help implement the reforms that will 
spur private-sector led investment and growth. Clear and transparent 
privatizations remain integral to building trust with citizens and 
international partners alike, and developing an attractive investment 
climate. Equally important, until revenues increase, the Government of 
Kosovo must implement a sustainable budget. We are also supporting 
comprehensive energy sector reform, another key component to ensuring 
stable growth and one that cannot afford further delay.
    Serbia has an important role to play on issues that will have 
practical benefits for the people of Kosovo. We urge Belgrade to find 
ways to cooperate on concrete humanitarian issues in Kosovo that would 
help the ethnic Serb communities there to improve their quality of 
life. Our vision for the Western Balkans relies on Serbia and her 
neighbors maintaining good relations, including supporting the 
participation of all countries in the Western Balkans in regional fora 
so they can address issues of mutual concern. The United States 
welcomes the recent joint initiative of Serbian President Tadic and 
Croatian President Josipovic for strengthening bilateral cooperation 
between the two countries. We hope that Serbia will continue to improve 
its efforts to ensure stability throughout the Balkans, including in 
Kosovo. Dialogue and cooperation to address practical, day-to-day 
issues such as electricity supply, customs, and courts are in 
everyone's interest and will improve the lives of all people in Kosovo, 
including Kosovo Serbs.
    The United States remains committed to Kosovo's sovereignty and 
territorial integrity. Kosovo's independence is a force for stability 
in the region, as all the countries in the Western Balkans are now free 
to focus on promoting good relations and advancing on their respective 
tracks to full Euro-Atlantic integration.
Macedonia
    Supporting Macedonia's integration into NATO and the EU remains a 
vital element in our efforts to promote peace and stability in the 
Balkan region. Macedonia has met nearly all of the technical reform 
benchmarks set by the EU, and the European Commission has recommended 
setting a start date for accession negotiations. We also commend 
Macedonia and Kosovo on completing the demarcation of their mutual 
border in October of last year and on establishing formal diplomatic 
relations. This is a major step for regional stability. Macedonia is an 
active participant in NATO's Partnership for Peace and Membership 
Action Plan. It is also one of the highest per capita troop 
contributors to ISAF. Macedonia's troop commitments are a reflection of 
the substantial progress the country has made in recent years in 
meeting NATO's standards in the defense sector.
    To maintain this positive momentum, there are further steps we 
encourage Macedonia to take. We encourage the Macedonian Government to 
prioritize improving interethnic relations by continuing to implement 
both the letter and spirit of the Ohrid Framework Agreement. In 
addition, Macedonia must continue to focus on reforms, particularly in 
the area of rule of law.
    Most crucially, the ongoing name dispute with Greece must be 
resolved as soon as possible. The United States strongly supports the 
ongoing U.N. negotiation efforts, led by Matthew Nimetz. We will 
embrace any mutually acceptable solution that emerges from the 
negotiations, but there must be a solution and soon. Active, 
constructive engagement between Athens and Skopje is vital to any 
positive outcome. We are encouraged by bilateral contacts at the 
highest levels in recent months to build confidence and to make 
progress on this issue. The dispute continues to impede Macedonia's 
integration into NATO and the EU and is therefore a potential threat to 
the stability of the whole region. In the interests of both countries 
and indeed of the entire region, leaders in both Macedonia and Greece 
must now take bold and decisive action to resolve this issue once and 
for all.
                            the way forward
    Despite the challenges that remain, this administration remains 
confident that, with close coordination with our European partners and 
the willingness of regional leaders to make the right choices, the 
Western Balkans can complete their path toward Euro-Atlantic 
integration. Nowhere else has U.S.-EU cooperation been more important 
or more promising than in Southeast Europe, where we have worked 
together successfully for over a decade to move the Balkans beyond the 
bloody and divisive mindset that tore apart the region in the 1990s. 
And indeed, while Balkan policy once divided the United States and 
Europe, today we are united in our determination to see this process 
through to a successful conclusion.
    This administration has also reinvigorated our engagement in the 
Balkans. Vice President Biden's May 2009 visit to Bosnia and 
Herzegovina, Serbia, and Kosovo underscored our commitment to help the 
countries of the region realize their Euro-Atlantic aspirations. And, 
as I mentioned earlier, Deputy Secretary Steinberg just completed the 
most recent of his many trips to the area. Together with our European 
partners, we are seeking to facilitate the resolution of those disputes 
that are holding back integration and reform. And we are backing this 
commitment with considerable resources: Our assistance effort in the 
Balkans has amounted to over $5 billion since 1995, helping these 
countries to meet the needs of their people, develop their economies, 
and build their institutions so that they can become full partners of 
the United States and members of the Euro-Atlantic community.
    More than ever before, credible prospects of membership in the EU 
and NATO remain the most powerful incentive for continued reforms. The 
``Open Door'' must be tangible, and the prospect of EU and NATO 
membership real, to continue driving necessary reforms. At the same 
time, to ensure the positive effect of these incentives continues, we 
must not compromise on the high standards we expect of prospective EU 
and NATO members. This is why we have been closely monitoring and 
encouraging efforts to resolve the border dispute between Croatia and 
Slovenia and the name dispute between Macedonia and Greece, so that 
other current and future candidates with unresolved bilateral disputes 
do not become discouraged.
    The EU's decision last year to grant visa-free travel throughout 
the entire Schengen area to Macedonia, Montenegro, and Serbia was an 
important signal of the tangible benefits of progress toward 
integration. While Bosnia was unable to meet the EU requirements at 
that time, it has since made tremendous progress in addressing the 
outstanding technical requirements. We hope it will earn the right to 
visa-free travel sometime this year. Further, we welcome the EU's 
commitment to provide Kosovo with technical advice to help the 
government complete reforms that will qualify it for EU visa 
liberalization.
    Ultimately, of course, the burden of achieving Euro-Atlantic 
integration, and through it security and prosperity, lies with the 
leadership and the people of the Western Balkans. One of the most 
promising developments of the last decade is the increasing realization 
among countries in the region that their prospects rise and fall 
together. This understanding has spurred the steps toward regional 
cooperation and ethnic reconciliation that we have seen, though there 
is still more to do. If the countries of the Western Balkans are 
willing to make the hard choices necessary for reform and joining the 
Euro-Atlantic community, the United States will stand with them.
    Madam Chairwoman, Senator DeMint, members of the committee, I am 
grateful for the opportunity to speak before you today, and I welcome 
the opportunity to respond to your questions.

    Senator Shaheen. Thank you very much.
    Ambassador Vershbow.

 STATEMENT OF HON. ALEXANDER VERSHBOW, ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Vershbow. Thank you, Chairwoman Shaheen. Thank you and 
other members of the subcommittee for inviting me here for this 
timely discussion on the Western Balkans.
    Before I begin, I'd also like to take a brief moment to 
thank Senator Voinovich for his steadfast commitment to the 
Balkan region. Your dedication to resolving these issues over 
many years has been of great benefit to U.S. policy in this 
critical but sometimes overlooked part of the world.
    I have a longer statement that I'd like to submit for the 
record, so I'll keep my opening remarks brief, especially since 
I think that at least all those who've spoken are pretty much 
on the same page.
    As our two Senators here have observed during their recent 
visit, the region has made remarkable, indeed breathtaking 
progress, but it also still faces a number of challenges.
    As has been mentioned this year marks the 15th anniversary 
of the genocidal acts of Srebrenitza, a reminder of the 
violence and the brutal ethnic cleansing that followed the 
breakup of the former Yugoslavia. This was a searing experience 
for me for a large part of my career with the Department of 
State. As a Deputy Permanent Representative of NATO in 1991, as 
NSC Senior Director in the mid-1990s, and as Ambassador to NATO 
from 1998 to 2001, I worked closely with our NATO allies and 
with Members of the Congress to end the wars in Bosnia-
Herzegovina and Kosovo and to help the Balkans follow the rest 
of Central and Eastern Europe along the path of EuroAtlantic 
integration, and it is heartening that since that time, we have 
seen some very dramatic transformations.
    The majority of Balkan States have transitioned from being 
security consumers to security providers, contributing to NATO 
operations in Afghanistan and elsewhere. In a region where 11 
years ago NATO was carrying out an air campaign, three 
countries are now alliance members, one is firmly on its 
doorstep, and all the others are on the path to the 
EuroAtlantic community.
    But as everyone has stressed, there are some big challenges 
that remain to be met. Kosovo has seen political and economic 
gains since independence but work still remains to be done to 
integrate all of Kosovo's communities, and we face an important 
transition as NATO forces gradually draw down.
    In Bosnia, interethnic tensions and dysfunctional 
institutions impede progress toward EuroAtlantic integration. 
Building stronger, more transparent and effective institutions, 
strengthening the rule of law, and deepening defense reform 
remain critical needs for these two countries and for the 
entire region.
    Let me offer a few brief comments on our defense 
relationships in the wider region, starting with Slovenia, 
Croatia, and Albania, who are now NATO members, as well as 
Macedonia, which is, as we've said, firmly on its doorstep but 
hopefully will cross into the room soon. I have more detailed 
remarks in my written statement.
    First, Slovenia. Slovenia, a NATO member since 2004, is an 
able partner in Afghanistan and a very welcomed participant in 
KFOR and other regional EU and OSCE missions. Its institution-
building assistance to neighbors and its work with Croatia to 
resolve a longstanding bilateral dispute are especially 
noteworthy.
    Croatia also is a valued NATO ally and it contributes 300 
troops to ISAF and it has played an important role in the 
training and mentoring of the Afghan National Police. We hope 
Croatia will continue to play a constructive leadership role in 
the Balkans and we encourage Croatian leaders to maintain 
positive momentum on domestic reforms.
    NATO warmly welcomed Albania into the alliance last year. 
Albania has actively contributed to ISAF and to peacekeeping 
operations in both Bosnia and Kosovo and earlier supported 
coalition operations in Iraq.
    Challenges in the security sector remain, however, 
including destroying excess munitions and modernizing their 
military in line with NATO standards, and we'll continue to 
focus our bilateral defense cooperation on supporting this 
process.
    As Phil Gordon has just said, Macedonia's NATO invitation 
remains unfinished business. At the Strasbourg-Kehl summit, 
allies reaffirmed their commitment to extend an invitation to 
Macedonia as soon as a mutually acceptable solution to the name 
issue is reached and we certainly believe that the time to end 
the name dispute is now and we continue to encourage renewed 
efforts under the auspices of the U.N. mediator to resolve the 
issue.
    But from a Defense point of view, Macedonia has 
successfully implemented critical defense reforms and has 
consistently punched above its weight in contributions to 
international security operations, including Afghanistan.
    Now let me offer a couple of comments on the two aspiring 
NATO members, Montenegro and Bosnia.
    Montenegro was accepted into the Membership Action Plan 
last December and last month deployed its first unit to support 
ISAF in Afghanistan. We applaud Montenegro's steps to implement 
needed reforms and we are encouraging continued efforts to 
address crime and corruption as Montenegro seeks EU membership.
    Bosnia is actively seeking to enter into a NATO Membership 
Action Plan, as well, and we firmly support that country's 
EuroAtlantic aspirations. Bosnia has made some successful 
contributions to international efforts in Iraq and Afghanistan 
and the integration of Bosnia's Armed Forces was a significant 
step forward, but as my colleague has stressed, more needs to 
be done.
    In recent years defense reform has faltered and intensified 
political wrangling among Bosnia's three ethnic groups has 
stalled development of a functional government. The 
government's inability to agree on the number of critical 
issues still raises some questions about its ability to 
implement the rigorous requirements of a membership action 
plan. So with ethnic agendas still dominating the political 
process, we're concerned that Bosnia's future remains 
precarious.
    My department will continue to engage closely with our 
Bosnian partners on defense reform and modernization. High-
level bilateral defense consultations in Sarajevo recently 
addressed Bosnia's security assistance priorities and United 
States funding for those efforts. We'll continue to support and 
train Bosnian Armed Forces, assist the state level defense 
institutions, and strengthen Bosnian capacity for ammunition 
destruction. As we do, the support of Bosnia's neighbors and 
partners will be vital.
    Of course, the most important neighbor in this regard is 
Serbia which has the opportunity to play a constructive role in 
Bosnia and elsewhere. A stable democratic and economically 
prosperous Serbia is critical to the integration of the Balkans 
into the European community and there's clear interest within 
Serbia in moving in that direction.
    Serbian Minister of Defense Dragan Sutanovac has sought to 
strengthen our bilateral defense relationship and to increase 
his country's participation in NATO's Partnership for Peace. 
The bilateral relationship especially between our militaries 
has greatly improved, but this encouraging vision could be 
hindered by Belgrade's continued focus on one particular part 
of its past, Kosovo.
    As has been mentioned, during the Vice President's visit 
last spring, we agreed to disagree on Kosovo's independence, so 
we could focus instead on other areas of our bilateral and 
multilateral relationship.
    However, Serbian leaders have continued to pursue an active 
campaign against Kosovo's independence and these activities 
threaten to reverse the trend toward regional stability and 
they could potentially limit Serbia's EU ambitions.
    So as we see it, Serbia's standing today at crossroads. 
Will it move toward a European future or remain mired in 
obsession with the past? We hope that our friends in Belgrade 
will make the right choice.
    We continue to closely monitor developments inside Kosovo. 
The security situation has improved since independence. The 
recent elections were a positive step. However, the environment 
in Northern Kosovo remains tense and we continue to monitor the 
situation closely in advance of an advisory opinion by the ICJ.
    The mission of the NATO-led Kosovo force KFOR will continue 
to adapt as the political and security conditions evolve. In 
June of 2009, amidst increasing stability in Kosovo, NATO 
Defense Ministers decided progressively to adjust KFOR's force 
posture to what's called a deterrent presence as conditions on 
the ground permit. This approach will allow a coordinated 
sensible adjustment in force levels and help to avoid 
uncoordinated unilateral withdrawals by individual nations.
    Secretary Gates regularly reminds allies of the importance 
of adhering to the in-together/out-together approach when it 
comes to Kosovo.
    Since June 2008, NATO has also undertaken the task of 
supporting the Kosovo Security Force, the KSF, as it develops 
into a professional democratic and multiethnic force. The KSF 
reached initial operational capability last September. Through 
NATO, the United States has played an active role in helping to 
prepare the KSF for its core missions of explosive ordnance 
disposal, control and clearance of hazardous materials, search 
and rescue, and firefighting, and my department, in partnership 
with other agencies, is also maintaining a robust humanitarian 
assistance program and working to help promote the rule of law 
and border security in Kosovo.
    So I look forward, as well, to answering your questions and 
I want to just end with an assurance that the Obama 
administration is firmly committed to stability and progress in 
the Western Balkans. Thankfully, we're not working alone. This 
effort is possible only with regional leadership and the active 
cooperation of European partners and international 
organizations and, of course, it benefits from the continued 
interest and support from the Congress.
    The continued expansion of this zone of security and 
prosperity is critical to the consolidation of peace in the 
Balkans and to our enduring vision of a Europe cold-free and at 
peace.
    I would agree that we have, indeed, invested a lot over the 
past decade and a half and we certainly should not quit now.
    Thank you very much.
    [The prepared statement of Mr. Vershbow follows:]

    Prepared Statement of Ambassador Alexander Vershbow, Assistant 
Secretary of Defense for International Security Affairs, Department of 
                        Defense, Washington, DC

                              introduction
    Chairwoman Shaheen, Senator DeMint, Senators, and Congressmen, 
thank you for inviting me here for this timely discussion on the 
Western Balkans. As Senators Voinovich and Shaheen observed during 
their recent visit, the region has made remarkable progress, but still 
faces a number of daunting challenges.
    This year marks the 15th anniversary of the genocidal acts at 
Srebrenica--a reminder of the violence and brutal ethnic cleansing that 
followed the breakup of the former Yugoslavia. As a Deputy PermRep at 
NATO in 1991, as an NSC Senior Director in the mid-90s, and as 
Ambassador to NATO from 1998 to 2001, I worked closely with our NATO 
allies and the Congress to end the conflicts in Bosnia and Herzegovina 
and Kosovo, and to help the Balkans follow the rest of Central and 
Eastern Europe along the path of Euro-Atlantic integration.
    The Western Balkans region has transformed dramatically over the 
last two decades, from a region in conflict to a region of independent, 
democratic nations that resolve disputes peacefully and work together 
to address regional and global challenges. Most nations have 
transitioned from security consumers to security providers, 
contributing to NATO operations in Kosovo and Afghanistan. In a region 
where 11 years ago NATO was carrying out an air campaign, three 
countries--Albania, Croatia, and Slovenia--are now alliance members, 
one--Macedonia--is firmly on its doorstep, and all others are on the 
path to Euro-Atlantic integration.
    However, a number of challenges remain. The global recession has 
limited the resources available for accomplishing our shared 
objectives, and exacerbated social pressures within the region. In 
Bosnia, interethnic tensions and poorly functioning government 
institutions continue to threaten progress toward Euro-Atlantic 
integration. In Kosovo, independence has brought political and economic 
gains, but work remains to integrate all of Kosovo's communities, and 
we face an important transition as KFOR gradually draws down. Building 
stronger, more transparent and effective institutions; strengthening 
rule of law and deepening defense reform remain critical needs for 
these two countries and for the region.
    The key to resolving these challenges lies ultimately with the 
countries themselves--they must provide responsible and committed 
political leadership, and their citizens should demand such leadership. 
The United States remains firmly committed to supporting these efforts, 
building on the progress in the region, and tackling remaining 
challenges in concert with our European partners.
    The possibility of NATO and EU membership has proven to be a 
powerful incentive for reform and remains the cornerstone of U.S. 
policy in the region. Allow me to review the progress each of the 
countries in the Western Balkans has made on that path and briefly 
address our engagement with each of the nations.
                                 kosovo
    I turn first to Kosovo, the one nation in the region where NATO 
remains engaged operationally. There are currently just under 10,000 
troops from 31 countries (24 NATO and 7 non-NATO) deployed with the 
NATO-led Kosovo Force (KFOR). U.S. troops make up approximately 10 
percent of the force. KFOR's mission is to maintain a safe and secure 
environment and to ensure freedom of movement for all citizens, 
irrespective of their ethnic origin.
    Following Kosovo's declaration of independence on February 17, 
2008, NATO reaffirmed that KFOR shall remain in Kosovo on the basis of 
U.N. Security Council Resolution 1244, and this was welcomed by the 
government. KFOR continues to work with Kosovo authorities throughout 
the country and cooperate with and assist the EU, the U.N., and other 
international actors to support the development of stable, democratic, 
and multiethnic institutions. In June 2008, NATO agreed to take on a 
new task to support the development of a professional, multiethnic 
Kosovo Security Force (KSF).
    The United States contributes to the improvement of security in 
Kosovo by, in addition to other engagement, strengthening the rule of 
law, working to increase border security, assisting in 
professionalization of the KSF, and conducting humanitarian assistance 
operations. The KSF reached Initial Operational Capability in September 
2009, and through NATO, we continue to assist in preparing the KSF for 
its core missions: explosive ordinance disposal; control and clearance 
of hazardous materials; search and rescue; and firefighting. The 
Department of Defense and other interagency partners also maintain a 
robust humanitarian assistance program and play a role in promoting the 
rule of law and border security.
    We are encouraged that the security situation in Kosovo has 
continued to improve since independence, but while the security 
situation is generally calm, we need to remain vigilant for potential 
flashpoints. The November 2009 elections were successfully run by 
Kosovo institutions and included significant participation from Kosovo 
Serbs in the south. However, the environment in northern Kosovo remains 
tense. We continue to monitor the situation closely in advance of an 
advisory opinion by the International Court of Justice.
    KFOR has reshaped and adapted to the changing security environment 
in Kosovo while still retaining an adequate level of capability to 
accomplish its tasks. In June 2009, in view of the stabilizing 
environment in the country, NATO decided to gradually adjust KFOR's 
force posture to what is called a ``deterrent presence.'' This approach 
will allow a coordinated, sensible adjustment in force levels and help 
to avoid uncoordinated, unilateral withdrawals by individual nations. 
Secretary Gates regularly reminds allies of the importance of adhering 
to an ``in together--out together'' approach in Kosovo.
    In the transition to Deterrent Presence, NATO will gradually reduce 
the number of forces on the ground through progressive ``gates,'' as 
security and political conditions allow. We are presently at Gate 1 
with a troop strength of approximately 10,000. The next steps along 
this path will be to draw force levels down to approximately 5,000 
troops at Gate 2 and then to 2,500 troops at Gate 3. At lower levels, 
the remaining forces will be supported by increased intelligence 
capability and marked by greater operational flexibility.
    It's important to emphasize that each stage in this transition will 
only be implemented if supported by conditions on the ground, at the 
recommendation of the KFOR Commander to SACEUR and upon approval by the 
North Atlantic Council. The decision will be based on a thorough and 
deliberate assessment of all the factors that contribute to a safe and 
secure environment, including the capacity of the Kosovo Government, 
supported by EU Rule of Law Mission in Kosovo (EULEX), to assume 
security functions.
    I turn now to Slovenia, Croatia, and Albania, the three nations of 
Southeastern Europe that are now members of NATO, as well as Macedonia, 
which remains firmly on its doorstep.
                                slovenia
    Slovenia, a NATO member since 2004, is a regional success story and 
plays an important leadership role within the Western Balkans. The 
country's key foreign and defense policy priorities are the 
development, integration, and security of the region. Slovenia provides 
training to its neighbors in critical government functions and 
organization, as well as economic assistance through connections and 
expertise in regional business and trade. Slovenia has ardently 
advocated for neighboring countries' membership in NATO and the EU, 
including those with which they may have disagreement, as a means of 
bringing further stability and reform to the region. Notably, this 
includes working constructively with Croatia on resolving a bilateral 
dispute, so that Croatia can progress in its EU accession negotiations. 
These initiatives and others serve to solidify its example as a 
consistent partner.
    Despite its small size, Slovenia participates in regional EU and 
OSCE missions, KFOR and other peacekeeping missions, and is an able 
partner for Afghanistan. In part, these engagements are possible due to 
Slovenia's transformation over the last decade to a more capable and 
modern military force, which is lauded as extremely professional and 
effective.
                                croatia
    Croatia has long been a valued NATO partner, and we are pleased to 
now call it a NATO ally. Our bilateral defense relationship is strong, 
and Croatia's nearly 300 troops in Afghanistan are helping to fill 
critical requirements, particularly in training the Afghan Security 
Forces. Croatia also contributes to regional stability through its 
participation in KFOR. The Croatian Armed Forces have undertaken 
significant restructuring and reforms but work remains on 
modernization, deployability, and interoperability. Croatia's continued 
political and economic progress is reflected in its positive outreach 
in the region--a trend we encourage and welcome. Even though Croatia 
still has reforms to complete, it serves as a constructive regional 
leader and mentor. The current government, for which EU accession is 
top priority, should be commended for its anticorruption efforts, 
contributions to NATO operations, and tangible progress on resolving 
the border dispute with Slovenia. The willingness of Slovenian and 
Croatian leaders to make tough and politically risky decisions for the 
longer term interests of their countries and the region is remarkable, 
and serves as a model for others to follow. We urge both sides to 
retain the momentum to deal with the remainder of their unfinished 
business.
                                albania
    In 2009, NATO warmly welcomed Albania into the Alliance. Albania 
has actively contributed to ISAF since 2003, committing over 300 
troops. It has also actively supplied troops to peacekeeping operations 
in Iraq and Bosnia. Challenges in the security sector remain, such as 
the destruction of excess stockpiles of munitions and weapons, and the 
further development of a modern, light, and mobile military. 
Fortunately, the history of NATO enlargement has shown that once 
countries join the Alliance, they continue the reform process rather 
than resting on previous achievements and, the United States will focus 
its bilateral defense cooperation on supporting this process.
                               macedonia
    At the 2009 Strasbourg-Kehl summit, allies reiterated that 
Macedonia will be invited to join NATO as soon as a mutually acceptable 
solution to the name issue has been reached. Macedonia has successfully 
implemented key defense reforms as a result of its NATO aspirations, 
and has consistently punched above its weight in contributions to 
international security operations, including Afghanistan where it is 
among the top five per capita contributors. Our bilateral defense 
relations and cooperation with Macedonia remain excellent, as evidenced 
by the recent joint deployment of the Macedonian Armed Forces and 
Vermont National Guard to Afghanistan.
    We view Macedonia's NATO invitation as unfinished business--their 
membership is important for regional security and stability. We are 
aware that the dispute over Macedonia's name is a difficult issue, and 
we continue to encourage renewed efforts under the auspices of the 
United Nations mediator to resolve this issue.
    Across Southeastern Europe, governments face pressures that have 
implications for continued reform, defense transformation, and 
international deployments. While emphasizing the need for national 
responsibility and strong leadership, we must continue to engage and 
maintain our support for a critical region that we can always count on 
to answer our call. We must continue to evolve our current relationship 
by working toward increased collaboration to ensure that the Balkans 
continue their progress forward toward the Euro-Atlantic community.
                               montenegro
    The United States continues to strongly support Montenegro's and 
Bosnia and Herzegovina's aspirations for Euro-Atlantic integration.
    We can point to notable successes in Montenegro. We have a strong 
partnership with the second-newest country in the world and our defense 
ties are particularly robust. Montenegro joined NATO's Membership 
Action Plan (MAP) in December 2009 and is focused on implementing the 
reforms necessary to meet NATO standards. In March, Montenegro sent its 
first unit to support ISAF. Montenegro has recognized Kosovo's 
independence and is a contributor to regional security. Montenegro 
applied to join the EU in December 2008 and expects to get candidate 
status later this year. Fighting organized crime and corruption remain 
key challenges for Montenegro as it progresses on its Euro-Atlantic 
integration path. Fortunately, Montenegro has suffered less from the 
world's economic downturn than most and the government has reaffirmed 
its commitment to meeting the challenge of overhauling its institutions 
to meet NATO and EU membership standards.
                         bosnia and herzegovina
    The U.S. firmly supports Bosnia's NATO membership aspirations; 
however, its political leadership has done little to break through 
nationalistic barriers in order to advance its candidacy.
    Bosnia's passage of the 2005 defense legislation, which ended 
conscription, dissolved entity-level armies, and created a State-level 
Ministry of Defense, was a significant success. Bosnia has also made 
important contributions to international security with a number of 
successful rotations in Iraq and its current contributions to 
Afghanistan.
    Unfortunately, despite commendable efforts by the Bosnian Ministry 
of Defense, progress on defense reform has faltered as it has fallen 
victim to the broader political stalemate. The wrangling among the 
three main ethnic groups has intensified ahead of the October elections 
and has stalled the process of building a more functional government 
capable of implementing needed reforms. This is vividly illustrated by 
the Bosnian Presidency's inability to adopt a critically needed 
decision to destroy its increasingly dangerous and unstable munitions 
and light weapons stockpiles. Besides the obvious threats of theft or 
self-ignition, the presence of the excess materials burdens the Armed 
Forces, which dedicate a significant portion of the infantry to guard 
duty, and impedes efforts to reform or modernize the Armed Forces. 
There are indications that a solution to this issue may finally be at 
hand, which is welcome. But the fact that it took over 2 years to 
resolve this issue is illustrative of the fundamental structural and 
political issues that need to be addressed for the country to 
successfully carry out the reforms that will be necessary to carry out 
the rigorous requirements that will be necessary as part of a 
Membership Action Plan.
    The administration remains concerned that narrow ethnic and 
personal agendas still trump common objectives in Bosnia, stilting the 
country's development and ability to keep pace with the rest of the 
region. But we are pleased that we continue to receive excellent 
cooperation on practical and technical defense and military issues that 
are not subject to political infighting. We are committed to continuing 
to work closely with Bosnia to ensure that progress on the defense 
reform and modernization agenda can continue, wherever possible. 
Earlier this year, we held bilateral defense consultations in Sarajevo 
in order to ensure that security assistance priorities were being 
addressed and that U.S. funding was targeting those priorities. We will 
continue to provide support and training to Bosnian Armed Forces, 
execute assistance programs for state-level defense institutions, 
assist with building capacity for ammunition destruction, and support 
the strengthening of defense institutions.
                                 serbia
    A stable, democratic, and economically prosperous Serbia is 
integral to the integration of the Balkans to the European community. 
Serbia has made great progress since the elimination of the Milosevic 
regime. Radical nationalist political parties have been marginalized 
and the majority of Serbians, particularly the young, have rejected 
isolation and yearn to integrate into the European community. The 
current government, under the leadership of President Boris Tadic, has 
dedicated itself to performing the various reforms necessary to achieve 
EU membership, and Serbia has made significant progress on this path. 
In an effort to close a chapter of its history, Belgrade is committed 
to actively pursuing Ratko Mladic and Goran Hadzic, the remaining two 
fugitives indicted by the International Criminal Tribunal for the 
Former Yugoslavia for war crimes. Additionally, bilateral United 
States-Serbian relations, particularly between our militaries, continue 
to grow.
    However, this encouraging vision could be hindered by Belgrade's 
continued focus on one particular part of its past: Kosovo. During Vice 
President Biden's May 2009 visit, we ``agreed to disagree'' on Kosovo's 
independence, so we could focus instead on other areas of our bilateral 
and multilateral relationship. However, Serbian leadership has 
continued to pursue an active campaign against Kosovo's independence. 
These activities threaten to reverse the trend toward regional 
stability and could potentially limit Serbia's EU ambitions. Serbia is 
at a crossroads--will it move toward the European future it says it 
desires, or be mired in an obsession with the past. Currently Belgrade 
is attempting to do both, a position we believe to be unsustainable.
                               conclusion
    The United States is committed to ensuring continued stability in 
the Western Balkans. This effort is only possible with the leadership 
of nations in the region and cooperation with our European partners and 
international organizations. EU and NATO membership serve as a powerful 
incentive for continued reforms, the peaceful resolution of disputes 
and regional cooperation. The continued spread of this zone of security 
and prosperity is critical to the consolidation of peace in the Balkans 
and a Europe whole, free, and at peace.

    Senator Shaheen. Thank you very much. We've been joined by 
Ranking Member DeMint, and I will turn to him for an opening 
statement.
    Senator DeMint. I'd like to yield to my colleague, Senator 
Voinovich, while I continue to go through my notes and align 
them with what we just heard.
    Senator Shaheen. While you look for--go through your 
information, let me begin with Dr. Gordon.
    You mentioned the young people of Bosnia in your remarks 
and while we were in Sarajevo, Senator Voinovich and I had the 
opportunity to have lunch with a group of university students, 
all very bright, but what distressed me was that in the course 
of that conversation, it was very clear that they were very 
pessimistic about their economic future in Bosnia and about the 
potential for things to change in the country and when I asked 
them if they didn't think about getting involved in the 
political process and maybe helping to make some changes in the 
country to address some of their concerns, they were almost 
unanimous in saying that that was not something that they were 
interested in doing. They seemed to feel almost powerless about 
their ability to change things.
    So how do we help these students? How do we address that 
powerlessness that we heard from those young people about the 
ability to effect the future of their country?
    Mr. Gordon. Thank you, Senator, for sharing those 
observations with us which alas are somewhat consistent with 
our own in the sense that I think you're right about an abiding 
or even growing pessimism which stems from, I think, the fact--
I think it's fair to say that in the 10 years after the Dayton 
Agreement, as difficult as progress was, there was a sense of 
moving forward in Bosnia-Herzogovina.
    It was a country ripped apart by a vicious civil war that, 
with our help and the help of the people there we managed to 
put back on the path towards stability and that path was being 
pursued with the bumps in the road but nonetheless for a good 
10 years.
    I think around 2006 that progress both stalled or perhaps 
even turned into in some ways regression. It is a sad reality 
that in many ways some of the political leaders in Bosnia have 
tended to put party interests or ethnic interests or personal 
interests or entity interests above the national interests and 
no doubt it is that sense that is reflected in the pessimism 
that you heard among young people and that is why we have 
stepped up our engagement.
    I think, you know, both Alex Vershbow and I noted our 
involvement in these issues previously and I think for many in 
the Obama administration coming back to this, we were 
disappointed to see that stalling after all of the progress 
that had been made and so we have stepped up our engagement. In 
Bosnia, in particular, I know I referred to Deputy Secretary 
Steinberg's trip last week. That was his fourth trip to Bosnia 
in this first year of the administration to try to instill--and 
he spent a lot of his time there engaging not just in the 
political leaders but with some of the very young people and 
public opinion, if you will, that you refer to because we need 
to communicate to them the message that there is a more hopeful 
future and it's the hopeful future that is being a part of 
EuroAtlantic institutions and that is what we're trying to tell 
them.
    We are with you. We're still with you and we want to help 
you get there and we are trying to communicate that message to 
the political leaders and to the extent that they won't listen, 
we're taking that message directly to the people and maybe the 
next generation will be willing and able to reach some of the 
agreements that will put Bosnia on this path to Europe that 
some of the current leaders have been unwilling to do.
    Senator Shaheen. And how much do you think the structure of 
the Government in Bosnia that came as a result of the Dayton 
Agreement is responsible for some of the stalemate there?
    Mr. Gordon. I don't think anyone would deny, Senator, that 
the Dayton Agreement and the constitutional structures of 
Bosnia-Herzogovinia are complicated. That's, you know, probably 
not what you would design if you were starting from scratch and 
imagining a constitution and an arrangement.
    But all constitutions are complicated. What matters is 
whether there's a will of the people to get over their 
differences and see that the future lies in making those 
institutions work. The United States had to overcome some 
difficulties in putting together its political system, as have 
many other countries.
    So no doubt there are challenges inherent in the makeup of 
that country, but I think one of the lessons of the European 
Union experience is that political and economic integration can 
get you beyond such difficulties where borders and ethnicities 
matter less and everybody is part of a broader union of 
diversity and that's the path that we think Bosnia is on and 
needs to be on.
    Senator Shaheen. Thank you. Ambassador Vershbow, you talked 
about defense reforms having stalled in Bosnia.
    Are there specific reforms that need to be in place in 
order for NATO to look more favorably on the MAP process?
    Mr. Vershbow. Yes. Yes, indeed. I mean, I think there's 
some specific tasks that we've been waiting for several years 
for them to undertake which is to dispose of the large 
quantities of surplus munitions and weapons that are in storage 
and are tying up a huge amount of personnel and resources in 
the process of guarding them and then there's a longstanding 
dispute over defense properties, the status of which is still 
in dispute among the different entities. So those are sort of 
two of the tests that we've been setting for them for several 
years which we're still waiting for them to take action on.
    I think in terms of the broader efforts of the Minister of 
Defense, we are often pointing out that the fact that we have a 
single military is actually one of the bright spots in Bosnia's 
evolution over the past 15 years and the fact that they are 
able to produce some small but important deployments in support 
of international operations is a sign of the potential that 
this country has to play.
    But until these longstanding issues can be resolved, I 
think we still have our doubts that the military, despite its 
formal unified status, is really a functioning entity and, of 
course, its emblematic of the wider problems that Phil Gordon 
has mentioned with regard to the institutions of the Bosnia 
state at large.
    Senator Shaheen. And how much is the pending election, do 
you think, responsible for some of those efforts being stalled?
    Mr. Vershbow. Well, I think that as the fall elections draw 
near, it becomes less easy for important decisions of this kind 
to be taken. That's true in any country.
    But we're hopeful that the continuing discussions with NATO 
on how to meet the requirements for the Membership Action Plan 
will inspire them to take these decisions over the coming 
months, at least it would be an important contribution to 
meeting the tests that NATO Ministers set for the Bosnians when 
they last considered the MAP issue in December.
    We certainly would like to see Bosnia in the Membership 
Action Program, but further reforms are needed, I think, to 
convince us that this is appropriate.
    Senator Shaheen. Thank you. My time is up.
    Senator Voinovich.
    Senator Voinovich. All right. I would like to continue to 
pursue the Bosnian situation.
    The interesting thing that Senator Shaheen and I picked up 
as we traveled through Southeast Europe was the consensus from 
most of the people that we talked with that the Butmir process 
was not as fruitful and that they really felt that between now 
and the election that some of the changes that we'd like to see 
made are not going to occur and that if we push and push and 
push, that that issue could become involved in the election 
campaign and there's a possibility that after the election 
things would be more difficult to take care of than if we kind 
of backed off and looked at some other options.
    Two things that they mentioned. One was the fact that many 
of the countries had received visa waiver from the European 
Union and felt that it would be very helpful if that were 
offered by the European Union to Bosnia. Understanding that 
there were some significant things that still needed to be done 
in terms of NATO, that the prospect of a MAP, it was felt, 
would be very, very worthwhile prior to the election. Some 
mentioned that Montenegro has now--it's been offered MAP and 
that in spite of the fact that probably if you took a poll in 
the Republic of Serbska today, they would not want to be 
involved in NATO.
    We were impressed that the President of the Republic of 
Serbska and we understand the Prime Minister Dodik both have 
indicated that they would like to see Bosnia-Herzogovinia be 
part of NATO.
    So the question is what's the wisest policy between now and 
then to create an environment that, once the election is over, 
that we can move on with some of the other things that need to 
be done in order to get them qualified for NATO and for 
membership in the European Union?
    Mr. Gordon. I'd be happy to begin with the series of issues 
that you raised and I'll start with Butmir, what you refer to 
as the Butmir process which, of course, is the process of a 
discussion of potential constitutional reform that Deputy 
Secretary Steinberg, along with Carl Bildt, then in the 
rotating EU presidency, undertook over the past 9 months or so.
    It's related in fact to the answer I gave to Senator 
Shaheen about the obstacles within the Bosnia political 
structure and, you know, just to be clear, when I said that the 
structures in Bosnia are not necessarily the impediment to 
Bosnia's path to EuroAtlantic integration, it's really whether 
the people are willing to get along. That's not to say that 
those political structures couldn't be improved and, indeed, 
that was at the heart of the process of Butmir, to consult with 
the parties and see if ways couldn't be found to make Bosnia, 
the Bosnian Government structures more efficient and functional 
because the reality is they are often dysfunctional because of 
the difficulty in reaching a common agreement and that's what 
that process was designed to try to achieve, again in 
consultation with the parties.
    Are there ways that these structures could be modified so 
that Bosnia would be a more effective functional government 
that could be considered for EU membership because the reality 
is the European Union is not going to take in a country that 
can't reach coherent decisions and so we worked with the 
parties to try to put those ideas on the table and you're 
right, Senator, they have not been accepted but they're still 
out there.
    I mean, ultimately, this is a process for the Bosnian 
leaders. We can't do it for them. We can't impose a new 
constitution or changes on them. We can simply work with them 
to try to find ways to make that a more efficient government.
    I think it's probably fair to say that these changes will 
not be pursued before the elections, but I'm hopeful that 
afterward the parties will come back to this agenda because 
ultimately, if they do want to get moving down this path to EU 
integration and NATO integration, they're likely to have to 
make some changes in their structures so that they can be more 
efficient and functional.
    As for the Bosnia MAP issue that you raise, it is rightly a 
question of finding the best approach to make it an incentive 
to do the right thing. I want to recall that--I want to 
underscore, first of all, that we agree with you that MAP can 
be an incentive for Bosnians and we want to give them hope and 
put them on the path to NATO and I want to recall that all 
allies agree with that because that was the decision last 
December at the Ministerial in Brussels, that allies decided 
that Bosnia-Herzogovinia will join MAP and then once necessary 
progress has been made on reforms. So I think all allies are on 
record as having agreed that they want to see Bosnia in MAP.
    The question of necessary reforms being made refers to what 
I just alluded to which is the capacity of Bosnia to act as a 
coherent responsible player in an international organization.
    Senator Voinovich. One of the things that came up, we had a 
very good meeting with the Defense Minister who we were quite 
impressed with, and I think it's really significant that 
they've come together as a country in terms of defense and that 
they're participating. That's terrific.
    And we talked about the issue of armaments and the 
destruction of it and we raised the issue of how fast could it 
get done and we tried to figure out who was in charge and who's 
going to--and there was some talk about, well, I think maybe in 
the Republic of Serbska, they've talked about maybe selling it 
and making some money on it and so forth.
    But why not come up with maybe some realistic challenge for 
them between now and the election and say, look, this is a big 
deal. If you want to get this done, you can get it done and 
there's plenty of folks out there that are willing to help you. 
Now let's, you know, get on with it and if you're able to do 
that, then that's an indication that maybe we should--this 
would be offered to you in the very near future and preferably 
before the election.
    Mr. Gordon. We would like to see just that and I would even 
add, you know, why wait for the election? This is something 
that they could do sooner, if they wanted to do it.
    Senator Voinovich. Well, that's what I'm saying. Is it that 
you say to them you can get--you can move very quickly on this 
and you can have one person that would ascertain it. It would 
be the person because they didn't give me the name, didn't give 
us the name of the one person. They said, oh, we're all working 
together. I said that's not the way you do it. You set up a 
plan and you have metrics and you see whether or not it's 
getting done or not and if you get it done, then that's a good 
sign that you're being responsible and would be an indication 
that perhaps MAP should be reconsidered.
    Mr. Gordon. Sandy will no doubt want to comment on this, as 
well, but I think that's exactly right, and when NATO said to 
them progress on political reforms, one of the categories that 
we have made clear that we're referring to is we want to see 
progress on this issue of excess munitions and defense 
property.
    Mr. Vershbow. If I could add, I agree with what Phil has 
said. We have, I think, been taking the approach that you 
recommend, Senator Voinovich.
    The Ministers said in December that they will be in MAP if 
they make progress on reforms and I think we're not setting a 
very high bar for them to jump over, and I think there's 
different ways that they could meet the test that the NATO 
Ministers set.
    But we do think that reform does need to precede entry into 
the MAP because the MAP itself is a very rigorous process that 
involves even more far-reaching reforms of not only the defense 
establishment but political and economic reforms.
    So I think for us to be confident that they'll be able to 
make good use of MAP, we want to see at least some progress, 
but there's numerous decision points coming up. There's a NATO 
Foreign Ministers Meeting just next week and perhaps the 
pressure of a deadline will focus people's minds and we'll see 
some progress before then.
    There's also a Defense Ministers Meeting of NATO in June. 
So there's several milestones ahead well before the elections 
and we would be delighted if we could see the kind of progress 
that would enable them to enter the MAP this year.
    So I think that we're trying to achieve the same end, but 
having set a certain standard back in December, we don't want 
to give them MAP for free.
    Senator Shaheen. Thank you.
    Senator DeMint.
    Senator DeMint. Thank you, Madam Chairman, and I'll just 
submit an opening statement for the record.
    [The prepared statement of Senator DeMint follows:]

Prepared Statement of Hon. Jim DeMint, U.S. Senator From South Carolina

    Madame Chairwoman, distinguished witnesses, I thank the committee 
for holding this hearing.
    Over the past two decades, the Western Balkans have gone through 
significant changes. The fighting has ended and the democracies that 
now fill the region are seeking to strengthen ties with the 
transatlantic community, to improve the rule of law, and to increase 
stability and regional cooperation.European Union and NATO membership 
opportunities have provided an extra incentive for Western Balkan 
governments to implement reforms and resolve bilateral disputes.
    Today, Slovenia, Croatia, and Albania are all valued NATO members. 
Montenegro joined NATO's Membership Action Plan (MAP) in December 2009. 
Other aspiring nations would also benefit from the structure and 
incentive of a MAP, to clarify the conditions and define the 
requirements necessary for NATO membership. Slovenia is already a 
member of the European Union, and numerous other countries are moving 
quickly toward that goal. In December 2009, the European Union 
announced visa liberalization for Macedonia, Montenegro, and Serbia; 
other countries are now working to achieve that benefit as well.
    However, despite significant improvements and greater integration, 
numerous challenges and obstacles remain, hindering full regional 
stability and integration.
    One issue of concern is the bilateral name dispute between 
Macedonia and Greece. Macedonia is on the brink of joining the EU and 
NATO, but it is unable to do so until the dispute over the country's 
name has been resolved. I hope that both countries will recommit to 
resolving the issue without further delay.
    Kosovo's internal progress, the Serbia-Kosovo relationship, the 
political situation in Bosnia, organized crime, and corruption remain 
challenges for the entire region.
    Despite these challenges, I believe that significant progress has 
been made in the region. Western Balkan governments have had to 
implement tough reforms, in many instances, to transition to free-
market and Western standards, and their commitment and willingness to 
tackle these issues is commendable. I look forward to hearing your 
testimonies and suggestions for ways the United States and our allies 
can help strengthen regional stability and the integration process.

    Senator DeMint. I thank you both for your service and for 
being here today, and I would just like to ask a broader 
question than relates to the specific countries we've been 
discussing.
    Going back to my meeting last year with some European 
leaders, I realize that we face a dilemma as a member of NATO 
and they're very clear that they expect the United States to 
play a stronger and more aggressive leadership role privately 
than they're willing to express publicly.
    Publicly, particularly our traditional European NATO 
allies, want us to appear with other NATO members, but 
privately will urge us that unless the United States leads and 
takes a more aggressive leadership role, particularly in the 
Balkans, that NATO will not succeed long term.
    That creates a dilemma for us in public policy, but it 
sounds like we have to, particularly in the Balkans, take more 
of a hand-holding and more of a pushing role, a little more of 
an aggressive role than our allies publicly expressed that we 
should, and I know in your diplomatic positions it's difficult 
to carry that out, but I'd just like you to comment on that 
because I felt a sense of urgency from the European countries 
that America has got to be more forceful to work out a lot of 
these things that we're talking about today.
    I'll just start with you, Mr. Gordon, and then.
    Mr. Gordon. Thank you. I think one of the things we've 
learned in the past 15 years of engagement in the Balkans is it 
has to be United States/European effort, a joint transatlantic 
effort, either extreme, and we have at times experimented with 
both, where it's just the United States trying to get things 
done or we step back and expect the Europeans to take the lead. 
I suppose there's a third alternative where we're both engaged 
but at cross purposes. None of those things work, and I think 
we have been trying very hard, indeed even succeeding, in 
learning the lessons of that and working together.
    I referred to the Steinberg-built effort on political 
reform. We could have easily disagreed with the Europeans on 
Bosnia and its future and let the parties play us off of each 
other, but our first step was to unify on a transatlantic 
approach and then deploy it together.
    When Vice President Biden went to Bosnia, Serbia, and 
Kosovo last spring, he didn't go alone, he went with Javier 
Solana, who was then our representative for the European Union, 
and they took a joint message to the parties, and I was myself, 
when I saw Senator Voinovich in Brussels, it was following a 
2\1/2\-hour meeting with the counterparts on Serbia and Kosovo 
because we had decided that it only works when we're in it 
together.
    So I think it's somewhere between--you're right that U.S. 
leadership is necessary, but we also acknowledge we need--you 
know, this is their backyard. This is their neighborhood. We 
need to be on the same page as the Europeans at the same time.
    Senator DeMint. Yes, sir.
    Mr. Vershbow.
    Mr. Vershbow. Thank you, Senator. It's an interesting 
observation which I agree with.
    Going back to the early days of the Balkan crisis in the 
early 1990s, Europeans initially said we can take care of this, 
and clearly they had difficulty. They were struggling with the 
issue, and I think they were greatly relieved when President 
Clinton decided to assert leadership and work with the 
Europeans and with the Russians, for that matter, to come up 
with a more effective strategy that did succeed in ending the 
war in Bosnia.
    But I think it was not, as Phil suggested, a European 
effort to ``cop out'' and turn this one over to the United 
States. I think the Europeans accepted their responsibility and 
played an important part in the success of the strategy leading 
up to Dayton and in the implementation thereafter and the same 
can be said of Kosovo. In both cases, European forces 
constituted the majority of the peacekeeping mission right from 
the very start.
    I think that as we deal with the current challenges, this 
kind of combined effort is really essential, and I think we are 
seeing leadership on the part of the Europeans as we grapple 
with these bits of unfinished business in Bosnia and in Kosovo. 
I think that's a healthy model for solving other international 
problems, as well.
    Senator DeMint. It's obviously a delicate balance and you 
appear to be trying to reach that, but it's an interesting 
dilemma to be faced with as they actually want you to do more, 
want us to do more than they're willing to admit back home and 
even publicly, but I appreciate the philosophy of trying to 
find that balance where we lead and bring them along with us in 
a positive way.
    So thank you, Madam Chairman.
    Senator Shaheen. Thank you. I want to just follow up a 
little bit on that question because, as I mentioned in my 
opening statement, one of the things that we heard when we were 
in the region was concern about enlargement fatigue among EU 
members.
    Is that something that we should be concerned about or are 
you all comfortable that there is a shared optimism among the 
other EU members that there will be an opportunity for all of 
the countries of the Western Balkans to hopefully eventually be 
on the road to EU membership?
    Mr. Gordon. I would say both. We should be concerned about 
it. You can't deny that enlargement fatigue exists, not least 
after the expansion in 2004 to 10 more countries. It is taking 
Europeans some time to get used to a much larger European Union 
and there has always been concerns about taking in new 
countries who have to demonstrate their political stability, 
some of whom have GDP per capita that is less than the European 
norm. So there's fear about immigration or undercutting wage 
rates and there's no doubt that Europeans have concerns and 
questions about it continuing.
    So that's one reason we should be concerned because 
enlargement fatigue does exist, and the second reason is that 
it would be a colossal setback for our own interests if 
European enlargement stopped. There has not been a greater 
program for democratization or prosperity spreading than the 
enlargement of the European Union and so we have a profound 
interest in seeing it continue through Central and Northern and 
Eastern Europe and through the Western Balkans, as well.
    We sometimes have to remind ourselves we're not members of 
the European Union, but that doesn't mean we can't have this 
view or express it and I think that enlightened European 
leaders have the same one and are doing what they can.
    I actually asked, I think, Senator Voinovich and I talked a 
little bit about this in Brussels and we both saw Commissioner 
Fuller, who's responsible for this, who was clear on behalf of 
the European Union that enlargement will go on. They are 
determined. They have criteria. They're tough criteria. 
Countries have to meet them, but European leaders know that 
it's in their interests to continue with this process and we'll 
support them in those efforts.
    Senator Shaheen. Thank you. Ambassador, did you have 
anything you wanted to add to that?
    Mr. Vershbow. Just that that's my impression, as well. I 
think when it comes to the Western Balkans, Europeans clearly 
have a strategic vision that this whole region should 
ultimately find its place within the European Union. It is a 
complex process, and it may take many, many years to unfold, 
but I think the idea that there could be some gaps, some holes 
in the fabric is not one that's shared by any of the Europeans 
I've talked to.
    So I think in that sense, we're very much in alignment. 
There may be differences on other parts of the EU enlargement 
agenda when you get beyond the Western Balkans, but I think 
that there they share the same vision and I think they want to 
use the incentive, the magnetic power of the European 
integration, to help encourage these countries to take the 
necessary decisions on reform, and that's why I think we're 
working so well together with our European partners.
    Senator Shaheen. Thank you.
    Senator Voinovich, did you have other questions?
    Senator Voinovich. Yes. I'd just like to follow up on the 
European enlargement.
    We've found that that was very, very important to the 
future of the region, that, you know, the Croatians are going 
to be coming in, the Serbs are anticipating--by the way, Ali 
Wren, who was in charge of enlargement for the EU, I thought 
did a marvelous job in Serbia. I think he was influential in 
the people deciding to go to the future rather than to the 
past, and Stephen Fuller said that, you know, we're going to 
eliminate that from our vocabulary and I think that really sent 
a nice message out there to everyone that was concerned. We're 
going to shut it off.
    I'd like to just get back to Kosovo for a minute. We know 
that the Court's going to decide. We know that the CART 
decision will be--we don't know what it's going to be, but some 
say it's going to say that the independence of Kosovo is OK, 
others think it's not, but I'm concerned that there should be 
some significant dialogue going on between the Serbs and the 
Kosovars to talk about what happens after that and what bothers 
me a bit is that we've kind of let that alone because it was 
like ``let's not get our stick in there because it could be a 
hornet's nest,'' and so things are kind of quiet right now from 
what I understand and now I think we're talking about, well, 
we've got some new ideas and this is the way it's going to be 
and so on and so forth.
    And I would suggest that a lot of thought be given to just 
ultimately what's going to be the status of Metroviza. That's 
the biggie. I think that the mayors that we met in Kosovo that 
are in Serbian enclaves seem to be relatively happy. Although 
we will say that the Serbian church are very concerned about 
their patrimonial sites and they're concerned about cutting 
back on NATO troops or KFOR troops there prior to that decision 
by the Court.
    The Kosovars are interested in making sure that when the 
Patriarch is to be installed in Petch that that doesn't turn 
into some political thing and so I'm just saying that anything 
that we can do to be constructive to start talking about some 
of these things I think would be very, very helpful to all of 
the parties involved.
    We don't need another March 17 like we had back in 2004 
where all hell broke loose. So I would just urge you to do as 
much as you can to see if you can't get some dialogue going on 
between them in terms of that.
    And last but not least, we applaud your effort in terms of 
the FYROM Macedonia, and I think it's really important that we 
take advantage of an opportunity that we have because the Prime 
Minister Papandreou has indicated to me personally his desire 
to work something out. We met with Geriefski, and he seems to 
be very interested in it, but it should be made very clear that 
if this thing isn't worked out in the next 6 months, Macedonia 
could become a black hole. In other words, a play area of 
instability. It wouldn't be good for the region. It wouldn't be 
good for Macedonia.
    They have a large minority population in Macedonia that 
they're working together right now, but I'll never forget the 
situation with Sertigora, Montenegro, and because of the fact 
that Kostonitza seemed to be more interested in the past than 
in the future and working things out, Montenegro now is a 
separate country, and I think that all of the people that are 
involved have to look at the big picture here about what's the 
future of the region.
    For the Greeks, it's important that they have a stable 
Macedonia and really work it out. The more I think you can 
emphasize how important it is for people to get at that and get 
at it now the better off I think we're all going to be.
    Thank you.
    Senator Shaheen. Either of you want to respond at all to 
that?
    Mr. Gordon. Very briefly on those two important points. On 
the first, Senator, you're right. We don't know what the ICJ 
decision will be and there's no point in speculating about it. 
Our view on the substance is clear, that we and 65-66 other 
countries recognize Kosovo's sovereignty and territory 
integrity and don't have any intention whatever to revisit that 
question. We think that piece of it is settled.
    We also, though, as you suggest, need to get on with 
encouraging talks between Kosovo and Serbia. We agreed with 
Serbia, as Vice President Biden told them, we have a 
different--they have a different view and we accept that and we 
don't expect them in the near future to be recognizing Kosovo, 
but especially if we get this Court decision out of the way, it 
will be time to focus on practical issues and get on with 
practical solutions on things like courts and customs and 
electricity and get on with--get beyond these debates about 
status, take the notion of partition off the table and get on 
with the business of helping real people live their lives on a 
daily basis, and the two countries need to talk to get that 
done.
    You referred to elections, municipal elections. We have 
already seen that in the south of Kosovo. It is possible to 
hold elections in Serb-majority municipalities and those 
elections can go well and Serb mayors with whom you met can be 
elected, and that's what we would like to see throughout the 
country and that really is the model for moving forward.
    On Greece-Macedonia, I couldn't agree more that now is the 
time. Waiting could put the stability of that country and the 
region at risk. It has been far too long. Both countries, as 
you note, have leaders who are ready to act, and we have been 
very much engaged in urging them to do so and we thank you for 
your efforts along the same lines.
    Mr. Vershbow. If I could just add that I agree with what my 
colleague has said. In terms of the security inside Kosovo, we 
recognize that when the ICJ decision comes, whenever that may 
be, there could be some political ripple effects on the ground; 
but we do believe that, even at the reduced levels that KFOR 
now maintains, we have the capacity to detect and deter and 
respond to any incident that may occur, and I think that as we 
consider potential further reductions in accordance with the 
step-by-step plan that NATO has adopted, we'll be very 
attentive to the conditions on the ground, be sure that any 
further reductions can--are compatible with potential future 
developments.
    But I would stress that KFOR now relies more heavily on 
mobile forces that are able to move quickly and decisively to 
respond to incidents, backing up the local police and the ELEX 
police forces. So KFOR has already become kind of a third 
responder but it does have the ability to respond quickly.
    That also applies to KFOR's approach to the monasteries and 
churches, the patrimonial sites. The process of turning them 
over to Kosovar responsibility is going to be a very deliberate 
one, based on a case by case assessment of the conditions on 
the ground and only after a clear recommendation by NATO 
Supreme Allied Commander Admiral Stavritis.
    We did have one successful transfer just this past March, 
the Gazimistand Monument. It went smoothly. The Kosovo Police 
are there as the first line of defense, but KFOR is standing in 
the background if there should be any difficulties that require 
its intervention.
    So I think that on the security side we've got it covered, 
but I would agree that it is essential that a dialogue begin 
between the Serbians and the Kosovar authorities. We're not 
expecting them to change their stance on recognition of 
Kosovo's independence but there are practical issues, including 
security along the borders between Serbia and Kosovo, that can 
only be addressed in a long-term fashion through a cooperative 
approach rather than by taking steps that are aimed at 
undermining Kosovo's authority and independence.
    Senator Voinovich. Thank you.
    Senator Shaheen. Well, thank you, both, very much. I have 
many more questions, but we have another panel. We want to get 
you all out of here, but as we're winding up this panel, let me 
just tell you both how impressed I have been with the levels of 
engagement of this administration in the Western Balkans in 
finishing the work there. Whether it was the Vice President's 
trip last year or the Butmir process that you all mentioned, 
even though it did come up short, it has reinvigorated the 
dialogue about the region between the United States, the EU, 
and the region. So thank you both for your continuing efforts 
in that part of the world and for being with us this afternoon.
    Thank you, both, very much.
    While they are leaving, let me recognize the second panel 
who are with us this afternoon and ask them if they would come 
to the front.
    First on our second panel is Ambassador Kurt Volker. He's 
the senior fellow and managing director of the Center on 
Transatlantic Relations at the Johns Hopkins School of Advanced 
International Studies. Previously, he served for over two 
decades in the Senior Foreign Service with extensive experience 
dealing with European political and security issues under five 
U.S. administrations. Most recently, he was Ambassador--U.S. 
Ambassador to NATO. He is no stranger to this subcommittee. 
We're delighted to have him back today.
    And joining him on the panel is Ivan Vejvoda, the executive 
director for the Balkan Trust for Democracy, a project of the 
German Marshall Fund that is dedicated to strengthening 
democratic institutions in Southeast Europe.
    Mr. Vejvoda joins us all the way from Belgrade, Serbia. You 
clearly win the award for farthest travel for this hearing, and 
it's great to see you again. Senator Voinovich and I had the 
opportunity to see you when we visited Belgrade, and we know 
that you've had a distinguished career in the Serbian 
Government as a senior advisor to a number of Serbian Prime 
Ministers. You remain one of the most widely renowned experts 
on the Balkans region.
    As Senator Voinovich has already pointed out, you were 
critical in convening that historic panel that Senator 
Voinovich participated in with the Presidents of Serbia and 
Croatia. Congratulations to you and to the German Marshall 
Fund.
    It's a pleasure to have you both here today, and Ambassador 
Volker, I'll begin with you.

   STATEMENT OF HON. KURT VOLKER, SENIOR FELLOW AND MANAGING 
  DIRECTOR, CENTER ON TRANSATLANTIC RELATIONS, JOHNS HOPKINS 
                   UNIVERSITY, WASHINGTON, DC

    Mr. Volker. Thank you for having me here, Madam Chairwoman, 
Senator DeMint, Senator Voinovich, for giving me the 
opportunity to testify about the Balkans region.
    I do have a written statement that I'd like to ask be 
submitted for the record.
    I suppose if I had to summarize my comments in a short 
sentence, it's that we're at a stage where we need to turn up 
the heat. We need to put our foot on the gas a little bit, and 
I think I detected that in some of your questions. I share that 
sentiment.
    As you noted, I have an extensive diplomatic background 
which, throughout the course of my career, kept intersecting 
with the Balkans, whether it was taking part in the peace 
negotiations for Bosnia back in 1993, the Vance-Owen process, 
being at NATO during the Kosovo air campaign, working with 
Secretary General Robertson and Javier Solano in unwinding 
ethnic conflict in Macedonia at the time, and working on NATO 
enlargements substantially. So I've had a lot of experience 
working through the region.
    I've also had experience in other areas, including, for 
example, Afghanistan, and so taking those things together, let 
me make a few observations, if I could, about where we are 
today.
    First, as you heard from the earlier panel, we've seen 
substantial progress in the Balkans over 20 years, and I think 
we have to remember that. I remember very well the days when 
war was raging between Serbia and Croatia or in Bosnia among 
three parties and there were a lot of fatalistic comments made 
at the time that there are centuries of ethnic hatred here, we 
can never sort this out, if we get in, we'll never get out, 
and, you know, we don't--frankly, when it comes to these ethnic 
conflicts, we don't have a dog in that fight.
    I have to say with 18 years of hindsight, that was 
completely wrong. We just got it wrong. While we may not have a 
view about who should win among ethnic groups, we definitely 
have a dog in the fight about there not being a fight and the 
Balkans region has to be a stable, prosperous part of the 
mainstream of Europe and we've invested heavily in that and 
made a lot of success.
    But then the second point I would make is we never finished 
the job and I think, you know, if you think about Europe, the 
history of Europe is one of overcoming history, whether it's 
France and Germany or Hungary and Romania and Transylvania or 
the South Tirol or any other number of areas, and it's hard 
work, and it is very difficult for leaders or for publics to be 
willing to give up on a nationalist dream, a territorial 
ambition, the grievances of past wars in order to look at a 
future, but that's exactly what happened in Western Europe and 
what's happened with the European Union and what needs to 
happen in the Balkans.
    And, frankly, it's that vision of being part of a stable, 
prosperous, democratic Europe that can motivate the kinds of 
change that we need to see in the Balkans. So I agree with 
those who say that conditions need to be met in order for 
countries to join NATO or the EU, but we need to do a much 
better job, as the European Union, as the United States, as 
NATO, in holding out the light at the end of the tunnel and 
saying this is where we all want you to go and we will do 
everything we can to help you get there.
    When you look at why we haven't finished the job or how we 
haven't, I'd just say, as you heard from some of the other 
panelists, where states did not make it so far to be in the 
Membership Action Plan or a member of the EU or member of NATO, 
we've seen regression. Where they have made it, we've seen 
continued progress. I think that's something to remember.
    Leaders with nationalist agendas feel more empowered when 
the vision is weak. When the vision is strong, it empowers the 
reformers. I think that we ratcheted down the U.S. and EU 
engagement in the region too quickly, taking our foot off the 
gas before we had really gotten to the destination, and now, as 
you mentioned, Senator, in your question, I do think that the 
sense of fatigue about enlargement is very real and I think 
there are a number of dangerous aspects to that.
    It comes from a lot of different things. You have members 
of the EU who put a narrow national agenda ahead of the vital 
agenda seeing the Balkan region integrated, for instance, on 
recognition of Kosovo or not, on the name issue. You have 
countries, like Germany, concerned about the Euro and what's 
happened with the Euro crisis or concerned about Turkish 
membership in the EU and this has led to a general sentiment 
that maybe the EU shouldn't be enlarging very much for any time 
to come.
    In fact, despite the stated policies of the European Union 
and NATO, the chatter is that none of this is going to happen 
for a really long time to come. Once Croatia's in, we're not 
going to see very much. If that's the message that people are 
getting in the region, and I believe it is, that's a very 
disturbing message to get.
    So I would recommend, I won't detail all the difficulties, 
but I would recommend a much more assertive action plan for the 
United States, the European Union, and NATO. I have to say I 
applaud the engagement of Deputy Secretary Steinberg and 
Foreign Minister Moratinos and their recent travel and their 
repetitive travel to the region. I'd like to see Baroness 
Ashton take part in a followup trip. I'd like to see Secretary 
General Rasmussen invited to take part or for him to send a 
designate, and I'd like to see an operationalization of the 
goal and if I could make a few specific suggestions.
    First, I think we need to renew in rhetorical terms the 
firm positive commitment to a vision of the Balkans region as 
all members of NATO and the EU, if they choose to be.
    Second, to do that, we have to engage both in those 
institutions, so in our relationship with European Union, in 
our relations with NATO, and also bilaterally with key 
countries, and I believe, as examples, France, Germany, 
countries that have not recognized Kosovo, for instance, such 
as Spain, Greece, of course, because of the Macedonia issue. We 
should be very active in that process.
    Third, we should have a concrete action plan of how to use 
the tools at our disposal, and I would say that both NATO and 
the EU have a robust set of tools that we can use, we have used 
successfully in the past, and we should be willing to use them 
again now.
    I remember the 1999 Washington summit where we created the 
Membership Action Plan. In fact, Ambassador Vershbow was the 
NATO Ambassador at the time. There were no criteria for 
countries to be a member of the Membership Action Plan. It was 
simply by self-designation that they wanted to be a candidate 
and this was NATO's tool for helping them.
    Now we've moved away from that simple proposition over the 
years. It's probably too late to go back to that, but I do 
think we owe it to Bosnia to give very specific criteria of 
what they need to do and a timeline and then to help them get 
there so that this becomes much more tangible. I think right 
now it still seems very dim and that empowers the wrong kinds 
of people and process.
    I also think that the EU could be much more assertive, as 
well, as I said, and I think we should encourage them to use 
their toolbox.
    Fourth, I think we need to maintain a robust international 
presence in Bosnia, that is, a United States Deputy in the High 
Representative's Office, a continued existence in the High 
Representative's Office, a European force that doesn't drawdown 
prematurely because, frankly, the situation is worse than it 
was a year ago and it doesn't make sense to drawdown on the 
investment now when it's headed in the wrong direction. We 
actually need to use the powers and use the resources that we 
have to proactively promote continued change.
    Fifth, I would say the same about Kosovo. We can't drawdown 
prematurely there exactly for the reasons Senator Voinovich 
mentioned, Metroviza and integration of Serb communities. Our 
presence gives confidence to that process and since the process 
hasn't been completed, our presence remains essential.
    Sixth, I do agree, also, we need to give renewed impetus to 
the Macedonia name issue. I'm also encouraged by the statements 
that Prime Minister Papandreou has made and I believe that 
there is an opportunity. I think some confidence-building 
measures, as my friend Zoran Jolevski and I, the Macedonian 
Ambassador, have discussed this week, some confidence-building 
measures for Macedonia's part could be help.
    Ultimately, though, it's going to have to be a compromise. 
There's no zero-sum 100-percent solution. It's a recognition 
that the advancement of the region serves the interests of both 
countries.
    Seventh, it hasn't been mentioned today and I want to 
mention it. We need to be forward-leaning with respect to 
Montenegro. Montenegro has done some remarkable work as an 
independent country in the past few years. It's important to 
have a successful model for countries for the future and I 
think that Montenegro can play that role and both for NATO. 
Giving them the Membership Action Plan last December was a good 
idea.
    I'd like to see the EU engage more forcefully and to see us 
help Montenegro be a good example for Serbia and for other 
countries in the region.
    Eighth, we do need a robust bilateral agenda with Serbia. 
That's been discussed.
    And ninth, I don't want to forget about Albania either. 
Albania has done tremendous work as a member of NATO but still 
suffers from a lack of political maturity, corruption, 
transparency issues, and a weak economy, and this is where 
again a light at the end of the tunnel from the EU, combined 
with very firm demands about what Albania must do to reach that 
light at the end of the tunnel, can try to motivate the 
political parties in the process there in ways that haven't 
been done recently.
    Those, Madam Chairwoman and distinguished Senators, those 
are my ideas for elements of a robust agenda. They're not all 
new. Of course, the administration's doing a lot of these and I 
believe that experts in the administration could flesh these 
out even more and add to them, but I generally believe that the 
attitude has to be one of turning on the gas.
    Thank you.
    [The prepared statement of Mr. Volker follows:]

Prepared Statement of Kurt Volker, Senior Fellow and Managing Director, 
     Center on Transatlantic Relations, Johns Hopkins University, 
                             Washington, DC

    Thank you Madame Chairwoman, Senator DeMint, and all the 
distinguished Senators here today for the opportunity to testify about 
the Balkans region.
    Like a whole class of U.S. diplomats, I first worked on and in the 
Balkans region some 18 years ago, during the height of the Bosnian war. 
I had served in the NATO office of the State Department, dealing with 
the changes to European security as wars first broke out in the former 
Yugoslavia. I was with Secretary of State Eagleburger in Geneva in 
December 1992 when he gave a major push toward establishing the 
International Criminal Tribunal for the former Yugoslavia.
    I then served as an Assistant to the Clinton administration's first 
U.S. Special Representative for Bosnian Peace Negotiations, Ambassador 
Reginald Bartholomew, and in that capacity, had the experience of 
taking part in the Vance-Owen negotiations, and sitting in bilateral 
and multilateral meetings with Slobodan Milosevic, Radovan Karadzic, 
Franjo Tudjman, Alija Izetbegovic and many others involved in the war, 
many of whom have later been placed on trial in the ICTY. I have a 
vivid recollection of flying into Sarajevo when it was under siege, and 
hearing mortar shells explode outside while we visited a hospital, 
which itself had been targeted.
    Immediately following, I served in Hungary and helped establish the 
first U.S. military bases in a former Warsaw Pact country, in order to 
facilitate the deployment of U.S. military forces from Germany to 
Bosnia, beginning in December 1995.
    I again worked on the Balkans when war in Kosovo broke out, working 
for my colleague here, Assistant Secretary Vershbow, when he was U.S. 
Ambassador to NATO, and then as Deputy Director of the Private Office 
of NATO Secretary General Lord Robertson, as we strengthened the KFOR 
peacekeeping mission. I then also worked with Lord Robertson, EU High 
Representative Solana, and others, in the successful effort to unwind 
the ethnic conflict that threatened to engulf Macedonia.
    And finally, in working on every round of NATO enlargement since 
the fall of the Berlin Wall, I have helped support the democratic 
transition and Euro-Atlantic integration of the nations of the region. 
In the State Department and as Ambassador to NATO, I have worked with 
Slovenia, Romania, Bulgaria, Croatia, and Albania--all as members of 
NATO--in dealing with common challenges in the region as well as in 
Afghanistan and elsewhere. I have worked closely with the EU, Turkey, 
and Greece, and occasionally waded into the fraught ``name issue'' 
concerning Macedonia. I have traveled extensively in the region, 
including well outside the capitals, and developed close contacts with 
senior diplomats and officials in every country there.
    With that background, and having dealt with other serious security 
challenges facing our transatlantic community, such as Afghanistan, I 
would like to make a few observations about the Western Balkans--and 
U.S. and European policy--as I see it today.
    First, I want to stress the degree of progress that has already 
been made.
    I remember well the days when war was raging between Serbia and 
Croatia, or among the three sides in the Bosnia conflict, the war 
crimes and ethnic cleansing. And I remember the fatalism present in 
much of the commentary at the time: that the Balkans were an 
intractable region with centuries of ethnic hatred, with no tradition 
of democracy, that it would be impossible to get right, impossible to 
get out once we get in, impossible to get involved without taking 
sides, and frankly, ``we have no dog in that fight.''
    We had just drafted a NATO Strategic Concept in 1991 where we spoke 
of NATO's role in crisis management and preventing conflict in Europe. 
Yet when war broke out, the United States and NATO engaged 
diplomatically, but otherwise--tragically--stayed on the sidelines 
until after the Srebrenica massacre.
    Well, frankly, and with 18 years of hindsight, the fatalism present 
in those early debates was entirely wrong. Though challenges of course 
remain, we have seen enormous successes and progress throughout the 
region. The Western Balkans region is now surrounded by stable, 
successful democracies that are members of the EU and NATO--Greece, 
Bulgaria, Romania, Hungary, Italy.
    And many within the Western Balkans have themselves become 
extraordinary success stories. Slovenia and Croatia are vibrant 
democracies, increasingly prosperous, and members of NATO. Slovenia is 
also a member of the EU, and has even served a term in the rotating EU 
Presidency, and Croatia is well on the way to EU membership. Albania 
has been successful as a member of NATO and despite its continuing 
political and economic difficulties remains far ahead of where it stood 
at the end of the cold war. Montenegro is making rapid strides on all 
fronts.
    And one thing is now crystal clear, even if was not clear back in 
1992: We may not ``have a dog in the fight'' when it comes to favoring 
one ethnic group over another, but we clearly have a very strong U.S. 
interest in there not being a fight to begin with. Instability and 
violence in the Balkans affects us all; and the success of the Balkans 
region is a benefit to us all. We have invested heavily there over the 
years, and for good reason, and with good effect. This is a region that 
can make it.
    And this brings up my second point: The progress we have seen in 
the Balkans is directly attributable to robust U.S. and European 
policies, including a strong emphasis on NATO and EU enlargement.
    Where Europe has been successful, it has found ways to overcome the 
divisions of history. Whether it is France and Germany, Protestant and 
Catholic in Northern Ireland, the Tirol, Transylvania, or Germany and 
Central Europe, the key to success in European political, economic, and 
security development has been integration, benefiting Europe's citizens 
today, overtaking divisions based in history and emotion that spiral 
downward.
    Overcoming history is no easy task. It takes strong incentives, and 
powerful disincentives, for nations and leaders to let go of 
irredentism, the memories of territories lost, the grievances of past 
warfare, and to instead invest in the future. Here, the real and near 
term prospect of membership in NATO and the EU--and the political and 
economic benefits that come with that--have provided that kind of 
incentive structure for all the states of Central and Eastern Europe, 
including Slovenia, Croatia, and others in the Balkans. It strengthens 
the hand of reformers in convincing publics that short-term pain, and 
giving up on nationalist agendas, will deliver greater benefits in the 
near term, and that the contrast, wallowing in these agendas, will 
separate a nation from a growing, integrated European family.
    I agree with those who stress that countries must meet the 
conditions of membership. No doubt about it. But we can be passive or 
active. A passive stance gives little incentive to reform, and empowers 
those with narrow agendas. But an activist stance, where we stress our 
willingness to admit new members and we work with candidate countries 
on specific reforms and criteria empowers those who are prepared to 
implement the fastest and farthest reaching reforms.
My third point, therefore, is to state the obvious: We never finished 
the job. Indeed, there is a strong case to be made that we started 
packing up prematurely:

  <bullet> That where states never reached the level of NATO or EU 
        membership, there has been regression;
  <bullet> That leaders with nationalist agendas remain strong;
  <bullet> That there has been political regression on many fronts;
  <bullet> That narrow agendas--in the region, but also among EU Member 
        States--are taking precedence over the strategic goal of 
        integrating the region as a whole;
  <bullet> That U.S. and EU engagement and assistance was ratcheted 
        downward too quickly in an effort to hand over responsibilities 
        and focus on even more serious challenges in Afghanistan and 
        Iraq; and
  <bullet> That despite the formal positions of NATO and the EU, the 
        reality is that further NATO and EU membership is now seen as a 
        dim prospect, not a near term possibility that can inspire hard 
        work and hard choices today.

    And indeed, this is really unacceptable--to have made so much 
progress, and then see it now at risk. The costs of finishing the job 
in the region now are far lower than what were the costs of war, and 
stopping war, in the past--and indeed lower than the costs of dealing 
with a potential return to instability in the future.
    Today, we are putting an extraordinary military, civilian, 
political, and regional effort into Afghanistan--and rightly so. The 
challenges in Afghanistan and Pakistan--and with violent, Islamist 
extremism on a wider scale--are enormously difficult and complex. And 
the security of our country and of our transatlantic community depends 
on success there.
    By contrast, the Balkans is far easier to help today: there is no 
active fighting; there is a literate population and skilled workforce; 
the economy is far more advanced, more integrated regionally, and open 
to the outside world; and there is a surrounding region that is stable 
and supportive of success within the Balkans. While the politics are of 
course difficult, we have every advantage in getting the Balkans 
right--and finishing the job--compared to the magnitude of the 
challenges we face in Afghanistan.
    And yet we see a number of areas where the region is stuck, where 
narrow and divisive agendas are triumphing over long-term progress. Let 
me name a few examples:

  <bullet> First, and most glaring, is Bosnia. Ambassador Richard 
        Holbrooke, who is now the United States Afghanistan Envoy, did 
        an extraordinary job in the 1990s ending the war and putting in 
        place the Dayton Peace agreement. It was a huge accomplishment 
        and probably the best that anybody could do at the time.
      But Dayton's achievement was to freeze the conflict in place, 
        giving time and space for political negotiations, rather than 
        violence, to shape a long-term settlement. While we did well in 
        the early years, in the past several years, efforts to 
        strengthen institutions, reform the constitution, improve 
        governance, and reconcile competing structures have gone 
        nowhere. Once NATO handed over security responsibility to the 
        EU, the EU swiftly downsized the security presence. And in 
        taking over the Office of the High Representative, the EU has 
        been too hesitant in exercising the powers of the office to 
        drive through necessary change. Now the talk is about reducing 
        EUFOR further, when the forces of separatism are stronger than 
        at many points in the past.
  <bullet> Kosovo also risks being stuck. Frankly, the fact that a 
        handful of EU Member States do not recognize Kosovo's 
        independence has been extremely damaging to Kosovo's ability to 
        move forward, and thus to wider progress in the region. It has 
        complicated economic development, inhibited certain types of EU 
        engagement, signaled to Serbia that there may yet be a chance 
        of reversing independence, and kept the extremely dangerous 
        talk of eventual partition alive. The reasons for not 
        recognizing Kosovo clearly satisfy certain national or 
        neighborly interests--but the net result is a far larger 
        diminution of security, stability, and long-term political and 
        economic development affecting all of Europe.
  <bullet> Likewise, it is tragic that the name of Macedonia as a 
        country has prevented that nation from moving forward into NATO 
        and EU membership. It is clearly in the interests of Macedonia 
        to become a member of these institutions, and clearly in the 
        interests of Greece to see Macedonia and the wider Balkans 
        region moving forward. Indeed, under Prime Minister Papandreou, 
        this renewed push for integration of the Balkans has been 
        striking and welcome. But 2 years after the Bucharest NATO 
        summit, where Greece blocked Macedonian membership--even under 
        the old formula of ``former Yugoslav Republic of Macedonia''--
        the issue remains an impediment, and arguably has gotten worse.
  <bullet> Serbia remains in a mixed position vis-a-vis the region and 
        Europe, and the question is how Serbia itself can move forward. 
        The combination of the impossibility of accepting Kosovo 
        independence, the vestiges of extreme nationalism, and the 
        painstakingly difficult engagement with the EU and NATO have 
        combined to keep this critical country in the region from 
        taking decisive steps forward domestically, and in contributing 
        to a more vibrant, prosperous Balkans region.
  <bullet> Montenegro has fared far better, making significant strides 
        on politics, governance, development, anticorruption, and good 
        neighborly relations, in just a few years. It has entered 
        NATO's Membership Action Plan. But this now also begs the 
        question of next steps in regional and European integration.
  <bullet> Albania has made it into NATO, but is far from EU membership 
        and is still struggling with the maturation of political 
        institutions, economic development, and fighting corruption and 
        crime.
  <bullet> And finally, a comment about the EU and NATO as a whole. The 
        EU already has a long-established case of ``enlargement 
        fatigue.'' This is compounded by the desire of some to prevent 
        Turkish membership in the EU--and thus any step toward 
        enlargement which could have the effect of bringing the Turkish 
        question closer to today's agenda. The Euro crisis has brought 
        out a wave of recriminations within the EU, and especially 
        Germany, that expands beyond the mere question whether the Euro 
        zone was enlarged too loosely, but whether any further 
        enlargement is wise or viable. Despite the EU's formal position 
        on Balkan enlargement, the chatter is that Croatian membership 
        with be the last enlargement of the EU for a very long time. 
        NATO has done better--bringing in Albania as a member, keeping 
        Macedonian membership as a live option if the name issue is 
        resolved, bringing Montenegro into the Membership Action Plan, 
        and working with Bosnia and Serbia through the Partnership for 
        Peace. But NATO, too, has deemphasized the prospect of future 
        enlargement, and this is noticed both by reformers and 
        nationalists in the region.

    And with this snapshot of the region, it brings me to my fourth and 
final point: We should aggressively pursue an ambitious strategy of 
engagement in the region aimed at finishing the job as quickly as 
possible; of making the Balkans region every bit as ``mainstream'' in 
Europe as the Czech Republic or Portugal; of ensuring that every 
country in the region has the opportunity to become a NATO and EU 
member if it so chooses, and (with our help) does the hard work 
necessary.
    Here, let me applaud the recent trip to the region of Deputy 
Secretary of State Steinberg, and Spanish Foreign Minister Moratinos. 
It is tremendously important to show engagement at that level, and 
important that the United States and EU are seen acting together. And 
this is just the latest of several such trips.
    In the future, I hope that EU High Representative Catherine Ashton 
takes part in such a joint visit, and that NATO Secretary General 
Rasmussen or his designee is also invited to take part. It is important 
to show a strong, united position of the entire transatlantic 
community, and to get back on track in emphasizing the realistic 
prospect of NATO and EU membership.
    To operationalize this engagement further, I believe it is 
important that the United States and Europe pursue a concrete agenda on 
several fronts. It is worth greater investment of resources, and 
indeed, greater political risk-taking, because the gains are worth it, 
and the risks of not doing so are even greater.
    The following steps, some of which are already being pursued, when 
taken together can become a key part of such an ambitious transatlantic 
agenda for the Balkans:
    First, we must renew the positive commitment of the EU and NATO to 
enlargement in the Balkans. At upcoming NATO and EU ministerial 
meetings, and especially at the NATO summit and U.S.-EU summit this 
autumn, we should make a clear and unequivocal statement that we are 
prepared to admit new members in the region as quickly as they are able 
to meet the criteria of membership. On the EU side, there should be no 
linkage to Turkey or any other factors; and on the NATO side, no 
linkage to Georgia, Ukraine, Russia, or other enlargement 
considerations. This is simply about the Balkans.
    Second, to do this, it is particularly important to engage not only 
the EU and NATO as institutions, but also the Member States. And when 
it comes to further enlargement, it is particularly important to engage 
Germany and France, though of course all members are critical. It also 
vitally important to engage directly with those states that do not yet 
recognize Kosovo as an independent state to urge maximum flexibility on 
their part for the good of the region as a whole.
    Third, this renewed rhetorical commitment must be followed up by 
concrete actions. The EU and NATO should aggressively use the tools 
already at their disposal to put countries on a membership track and 
use the mechanisms within that track to push for necessary reforms. For 
the EU, this means association agreements, candidate status, detailed 
consultations about requirements to implement over time the EU acquis. 
It also means visa-free travel for all the citizens of the region, and 
in this context, Foreign Minister Moratinos' comments about visa-free 
travel for Bosnia being discussed by the EU in June are encouraging.
    In the case of NATO in particular, we should make clear our 
willingness to admit Bosnia and Herzegovina to the Membership Action 
Plan (MAP), based on their meeting clearly defined criteria (e.g., 
settlement of defense property questions) in the near term.
    It is worth recalling that when the MAP was created at the 
Washington summit in 1999, there were no criteria whatsoever--it was 
simply a tool established by NATO to help countries meet the 
requirements of membership. We have consistently drifted away from that 
position over the years, insisting, for example, on a period of 
``intensified dialogue'' before offering MAP, and setting out other 
conditions. This led to the unhelpful outcome of the Bucharest summit, 
where we promised membership to Georgia and Ukraine without offering 
MAP as a framework for helping them meet the criteria of membership--a 
complete reversal of the sequencing applied by NATO in the preceding 
decade. We are now too far along to offer MAP to Bosnia without their 
meeting any criteria, but we should define those criteria and help see 
that they are met quickly, and that MAP is offered as both incentive 
and reward. We should return to seeing MAP as a tool worth using.
    Fourth, we should maintain a robust international presence and 
commitment in Bosnia, including a strong OHR with a U.S. Deputy and a 
robust EU Force, until Bosnia sustainably implements far-reaching 
reforms. The fact is that the situation has deteriorated in recent 
months and years, and further international community drawdowns would 
only further that disintegration. We need to increase our investment 
and commitment, in order to push through necessary reforms and enable 
long-term success.
    Fifth, likewise, we need to maintain our robust commitment in 
Kosovo as well--both through KFOR and through the EULEX operation. We 
must work patiently but determinedly to ensure that minority rights are 
respected, to remove parallel governing structures, and to facilitate 
the integration of north Mitrovica into Kosovo as a whole. And we must 
be categorical in rejecting any proposals for partition of Kosovo.
    Sixth, we need to give a renewed impetus to the effort to resolve 
the Macedonia name issue. Here, the U.N. has the lead, under negotiator 
Matthew Nimitz, but the United States can play a critical role behind 
the scenes. Macedonia has the greatest interest in a resolution of the 
issue, because membership in NATO and the EU awaits, but Greece too has 
a direct interest in seeing all of its neighbors advancing in political 
stability, economic prosperity, and security through EU and NATO 
membership. Direct meetings between the Prime Ministers have already 
taken place, and these are essential. Further confidence-building 
measures would be helpful--for example, from Macedonia, in reversing 
provocative steps such as the name of the airport and highways, removal 
of certain public statues. And in the end, a compromise--not a zero-sum 
or 100-percent solution--must be found, and the basis for such a 
compromise already exists within the framework offered through the U.N. 
negotiations.
    Seventh, we should be forward-leaning with Montenegro as a success 
story that can help generate greater momentum in the region. The 
decision to admit them to the Membership Action Plan of NATO last 
December was a wise one. Montenegro has further work to do on 
strengthening democratic habits and institutions and fighting 
corruption, but the progress it has made already is impressive. 
Successful integration of Montenegro into Europe, based on Montenegro's 
own performance, can be a powerful example for Serbia, Albania, and 
others.
    Eighth, as the United States and the EU, we should carry out a 
robust, bilateral agenda with Serbia. It is too much to expect that 
Serbia could recognize Kosovo in any foreseeable timeframe, and yet 
Kosovo's independence is a fact that will not change. This 
contradiction creates a drag on the entire region. In this unsettled 
situation, however, the best we can do is reach out to Serbia as a 
country and as a people to help them reinforce democratic institutions 
and integration as a whole, while simultaneously working to strengthen 
Kosovo as a democratic state that is itself integrating in the region 
and in Europe. At the end of the day, the mutual integration of Serbia 
and Kosovo into a larger framework may be the only way to get beyond 
the zero sum approaches to independence in play today.
    Ninth, as the U.S. and EU, we should continue to encourage Albania 
in strengthening its democratic institutions, its economy, and 
government transparency and anticorruption. And this again depends on a 
clear light at the end of the tunnel in terms of EU membership, 
provided Albania implements the necessary reforms effectively over a 
sustained period of time. This is obviously not a near-term prospect, 
but at the same time, the direction must be clear.
    Madame Chairwoman, these elements are the beginnings of an 
aggressive strategy and agenda for finishing the job in the Balkans--a 
job we started almost 20 years ago. I am sure that experts in the 
administration can sharpen these elements and add additional ones. But 
the critical thing is that we make our intentions clear, we act 
affirmatively, we mobilize others, particularly in NATO and the EU, and 
we assist reformers in the region to bring their own countries forward. 
If we are passive, we will see continued backsliding, at risk to the 
region and ourselves. But if we are active, we have a realistic, near-
term chance to bring the region into the transatlantic mainstream once 
and for all.
    And given all the other problems we must deal with in the world, 
achieving a realizable success is certainly worth the investment it 
will require.
    Thank you for the opportunity to testify at this hearing.

    Senator Shaheen. Thank you very much.
    Mr. Vejvoda.

STATEMENT OF IVAN VEJVODA, EXECUTIVE DIRECTOR, BALKAN TRUST FOR 
   DEMOCRACY, THE GERMAN MARSHALL FUND OF THE United States, 
                        BELGRADE, SERBIA

    Mr. Vejvoda. Thank you very much, Madam Chairwoman, Senator 
DeMint, and Senator Voinovich. It's a true honor to be once 
again at the United States Senate to testify on issues of the 
Balkans.
    The visit of Vice President Biden for this administration 
was, I think, a crucial reminder that there was unfinished 
business and that it required the joint efforts of the United 
States and of the European Union to continue to reach a goal 
that is within reach, and I think that compared to all the 
other burning issues on the international agenda that we all 
confront and they need no mention, I think this is one where we 
can have a success all together, first of all, for the benefit 
of the citizens of the region where I come from and for the 
transatlantic community.
    That said, of course, the closer one gets to the goal, the 
more difficult it gets to put the final pieces in place.
    I would remind that Baroness Ashton in her new position 
made her first visit outside of the European Union to the 
Balkans after having come to the United States and I think that 
was a very robust message that this was a priority for the 
European Union and it is heartening to hear the United States 
administration, in the guise of the previous speakers and of 
the Congress, that this joint effort will be continued. It 
needs to be maintained.
    Movement toward European and Euro-Atlantic integration is 
extremely important and any stagnation could lead to festering 
and to at least worsening some of the situations internal to 
the country.
    That brings me to the region and I think that even though 
we talk of individual countries and I agree with what has been 
said on their progress and we applaud that progress and I think 
we're becoming better at becoming each other's champions in EU 
and NATO integration, but what I mean by region is that 
positive dynamics affect each other as do negative dynamics. 
Just as the Slovenia-Croatian border dispute sent a bad message 
of the whole region to the rest, so the resolution or opening 
of the resolution sent a good message.
    We do communicate--we do function as communicating vessels 
and so the positive signs that we have seen recently, as 
Senator Voinovich mentioned, the meeting at the Brussels forum 
organized by the German Marshall Fund, between President Tadic 
and President Josipovic, after their very successful meeting in 
Croatia, was extremely important. They sent very clear messages 
together on the integrity and sovereignty of Bosnia and 
Herzogovinia on the need to work together. The two governments 
of Croatia under Prime Minister Kosor and Prime Minister 
Srbijie of Serbia are working out concrete ways into which to 
start revolving the numerous bilateral issues. This is 
leadership and both presidents have spoken about European 
partnership and leadership as they have addressed this issue.
    One example of this cooperation which is in fact not only 
regional but transatlantic cooperation has been mentioned here 
today is the fight against organized crime. The United States 
agencies that are fighting drug trafficking have worked 
together with Serbia and Croatia and have successfully managed 
to capture 2.2 tons of cocaine in Mid-Atlantic and in fact 
yesterday the Serbian Judiciary indicted a certain Darkosharish 
and his people for these organized crime activities that are 
extremely dangerous and that are even threatening to maybe 
eliminate some of the leaders in Serbia because they have hit 
the hornet's nest. These are people who have millions, if not 
billions, in cash and can buy anything and thus are very 
dangerous.
    I mention this because this has propelled regional 
cooperation. The work of security forces in the region between 
Serbia, Croatia, Bosnia, Montenegro has been very important and 
in fact Serbia has suggested that the Regional Crime Center be 
organized and Croatia's already indicated its support to this. 
So again, without the United States, without the EU, we cannot 
tackle these global issues that affect all of us, just as we 
fight global terrorism together.
    I would like to give a few examples just in the past few 
days of how positive this development continues to be. Just 
today, I believe, the Ministers of Defense of Serbia and 
Montenegro have signed an agreement on further deepening of 
cooperation. Just 2 weeks ago, the Albanian Deputy Prime 
Minister and Foreign Minister Ilya Meta visited Belgrade after 
7 years and indicated with his Serbian counterparts, meeting 
with President Tadic, that he wanted to reinforce bilateral 
relations, traveled to South Serbia, spoke to the Albanian 
community there jointly with his Serbian Minister of Local 
Government and said that Albanian Serbia would work together to 
help the economic prosperity of that community.
    Today, President Josipovic of Croatia was in Bosnia and 
gave a strong statement apologizing for what Croatia did during 
the war in Bosnia. President Tadic was in Mostar in Bosnia-
Herzegovina just 2 days ago, invited to open the Trade Fair and 
Serbia being the guest country, meeting with Bosnia leaders.
    What I want to say is there is intense cooperation that is 
not visible to the common eye. Even those of us who are in the 
region do not see the myriad of activities and relations that 
are there. They now have to bubble up to the top to resolve the 
unfinished business that remains.
    Let me also say that coming from civil society, the role 
that civil society organizations play in their countries 
individually but also in regional cooperation is extremely 
important. Those relations are a dense network of 
interconnectivity, of cross-border cooperation, of dialogue 
between Serbs and Albanians in what we call the Dayton 
Quadrangle, the effort at a reconciliation effort and Truth 
Commissions called RECOM between organizations working on 
confronting the past, and, of course, not to mention the 
declaration on Srebrenitza that you mentioned in your opening 
statement.
    That is extremely important for Parliament of a nation 15 
years after the massacre and genocide that occurred in 
Srebrenitza is, I think, foreboding of how the region is moving 
in that direction.
    USAID has, I think, with other donors played an extremely 
important role and we are heartened to hear that USAID will 
stay in the region for at least 5 more years to come. I think 
that's a very wise and prudent decision that has been made to 
help all of these efforts.
    Finally, a word on the economy which we haven't mentioned. 
The IMF and the World Bank continue to play a very significant 
role as we confront the global crisis. It would be important, 
also, to see WTO membership for those countries that have not 
yet joined Serbia among them and thus a proactive, pragmatic 
and constructive approach by the United States together with 
Europe, which is the home of Southeastern Europe, is warranted 
for.
    Thank you, Madam Chairwoman, and I'm ready to answer any of 
your questions.
    [The prepared statement of Mr. Vejvoda follows:]

 Prepared Statement of Ivan Vejvoda, Executive Director, Balkan Trust 
  for Democracy, German Marshall Fund of the United States, Belgrade, 
                                 Serbia

    Madame Chairperson, Senators, it is a truly great honor to be 
invited to speak today before this subcommittee of the United States 
Senate at this significant moment in the dynamics of Euroatlantic 
integration of the Western Balkans region as it continues the 
consolidation of democracy, peace, and stability. I am here to offer my 
personal views on the current issues and the opportunities and 
challenges that lie ahead.
             introduction: western balkans: 10 years after 
                    milosevic, 15 years after dayton
    This year marks two important anniversaries: 10 years of the end of 
the Milosevic regime in Serbia through a peaceful electoral process and 
15 years of the Dayton/Paris Peace accords. The region of the Western 
Balkans has in this period moved forward with significant successes yet 
sometimes with ongoing challenges and unresolved issues. The fact that 
it lies in core geographic Europe, an ``inner courtyard'' of Europe 
surrounded by EU and NATO members (Italy, Slovenia, Hungary, Romania, 
Bulgaria, and Greece) has been conducive to the advancement of the 
region in European and Euroatlantic integration processes. The joint 
transatlantic, U.S., and EU support to the processes of stabilization 
and democratization of the Western Balkans has been a key element in 
this forward-moving dynamic.
    In my introduction to a hearing before the U.S. Senate on 14 July 
2004, I wrote: ``The point of these introductory thoughts is to say 
that there is a positive story in the Balkans that is not getting out. 
The reasons are many: attention internationally has shifted elsewhere, 
there are more burning issues in other parts of the world, the Balkans 
seem by comparison in less need of attention, but also because when 
focus on the Balkans occurs it is most often solely because of the 
outstanding and still unresolved issues.''
    Nearly 6 years later this situation still holds. The Western 
Balkans are firmly on their way to join the EU and NATO (with the 
exception of Serbia on NATO). Whatever the remaining challenges, and 
these should in no manner be underestimated or belittled, they seem be 
of a nature that with engagement and commitment of all parties, 
domestic and international, prudence and realism, lead in a reasonable 
timeframe to resolution.
    That is why it is important to not forget the Western Balkans and 
to see this democratic peace project through to its Euroatlantic haven.
    european union: the peace project and the promise of membership
    The European Union as it stands today is at origin an emphatic 
political post-World War II peace project. It has created an 
institutional framework encompassing 27 Member States, comprising close 
to half a billion citizens. The Western Balkans constitutes the next 
crucial chapter of that project.
    As with other countries of the post-Communist world, the Western 
Balkans strongly aspire and endeavor to join that peace project and its 
present institutional framework.
    The soft-power of the European Union with its policy of open doors 
to further enlargement is both a strong incentive and an enabler and 
facilitator for the necessary difficult and deep-seeded democratic and 
market reforms required for these new European democracies to become 
consolidated.
    As with the enlargement of the EU (then European Community) to the 
two post-dictatorship countries of the Iberian Peninsula, Spain and 
Portugal in the 1970s, and to Greece after the dictatorship in 1981, so 
the embracing of the Central and East European countries after 1989--
the ``return to Europe''--has been a fundamental shift in the political 
geography of Europe.
    The Balkan Peninsula, after the Apennine and Iberian Peninsulas, is 
the final Southern European component that will join the EU--thus 
continuing the unfinished business of creating a Europe whole and free 
and at peace.
    Geography matters and the case of the Balkans confirms it. But 
history has an equal if not greater impact. The former Yugoslavia took 
``a wrong turn'' in 1991 and descended into a violent breakdown when 
all others were ``returning to Europe.'' Now the region with its 
difficult historical legacy, both of communism and of the devastating 
1990s has chosen to join the others who have preceded it on the path to 
Euroatlanticism.
    The promise that the EU gave at its summit in Thessaloniki in June 
2003 was crucial in opening the route forward. Predictability and 
credibility of the path were essential to the endeavor and have brought 
the region to where it is today. Without this broad roadmap, without 
the realization of the polities of region that they too were in reach 
of joining their European kin, it would have been much harder to engage 
in the painstaking work of changing these societies and economies that 
had been left in a dire state after the violent conflicts of the 1990s.
    The presence and support of the United States to these efforts has 
been of the essence in the whole region. Only by joint action has 
forward movement been possible.
                two fundamental positive presuppositions
    That one can be cautiously optimistic about this dynamic of 
democratization and Euroatlantic integration is predicated upon two 
fundamental agreed upon positions of all of the democratically elected 
leaders and governments of the region:

--All of the Western Balkans leaders and governments have been 
    democratically elected and have committed their countries to 
    integration into the European Union and NATO (with the exception of 
    Serbia for NATO).
--All of the Western Balkans leaders and governments have underscored 
    that whatever outstanding challenges and unresolved issues stand 
    before them they will address them solely by institutional, legal, 
    and diplomatic means.

    We have been seeing the positive consequences of these clear policy 
choices in the recent past and we are witnessing them today in a 
reinforced and multifold way.
                        euroatlantic enlargement
The European Union
    All of the Balkan countries are now at some stage of integration 
with the EU. Croatia is the furthest ahead and is negotiating the final 
chapters of its accession. Macedonia is a full candidate awaiting a 
date for the beginning of its negotiations for entry. Montenegro has 
fulfilled the extensive questionnaire of the EU and awaits candidate 
status. Albania is in the process of filling out the questionnaire. 
Serbia presented its candidacy in December 2009 to the Swedish 
Presidency of the EU and awaits the month of June 2010 to see whether 
it will be moved to the next stage, receiving the questionnaire and 
seeing the beginning of the ratification process of the Stabilization 
and Association Agreement. Bosnia-Herzegovina has signed a 
Stabilization and Association Agreement and is expected to pose its 
candidacy for membership as the next step. Kosovo has a separate, 
parallel track and the EU is in the process of assessing next steps.
    Visa-free travel remains a goal for Albania, Bosnia-Herzegovina, 
and Kosovo after Macedonia, Montenegro, and Serbia successfully 
attained this status in November 2009. This is crucial because it is 
probably the most tangible measure for individual citizens on the long 
road to accession. The visa-free regime is very simply a message from 
the EU which says: we do not wish to build walls; on the contrary you 
are welcome in our midst.
    All are thus now embedded in and encompassed by the institutions, 
rules, and procedures of the European Union. This is of historical 
significance for the region, for Europe, for the United States, and for 
transatlantic relations. The processes of democratic reform, 
strengthening of rule of law, improving governance and transparency, 
fighting organized crime and corruption, and developing mutually 
beneficial regional relations are fully engaged to a greater or lesser 
extent. As the countries get closer to the EU these processes require 
more intense engagement and results.
    The experiences of the EU accessions of Romania and Bulgaria in 
2007 have made the rules of entry more stringent and rigorous for the 
Western Balkans countries. The governments of the region are well aware 
of this fact. It is clear that there will be no free pass for EU entry.
    It is of paramount importance that the movement of EU integration 
progress on the basis of the merit of accomplished domestic reforms. 
The incremental integration of these countries is essential in 
motivating those who work on reform processes, but also because it 
helps address the outstanding unresolved issues in the region. The EU 
and Euroatlantic process has an enabling and soothing element in 
tackling the most difficult issues.
    The Lisbon Treaty has given new impetus to the enlargement process. 
It has been very important that Baroness Catherine Ashton the High 
Representative of the European Union for Foreign and Security Policy 
made her first official visit outside of the EU, after visiting the 
United States, to the Western Balkans in February. She came with 
clarity of purpose emphasizing that the Western Balkans enlargement was 
a priority of the EU and her office. She was quickly followed by the 
new EU Commissioner for Enlargement and Neighborhood Policy, Stefan 
Fule.
    Frequent visits to Brussels EU headquarters, but also European 
Member-State capitals, by all regional leaders are equally important 
for the ongoing exchange of information. This is vital in particular in 
view of the challenge of so-called ``fatigue'' with enlargement among 
certain quarters of the European Union states and publics. This is an 
issue that both the EU and the aspiring Western Balkan countries must 
bear in mind as they go forward. This is also where the United States 
can be supportive in stressing the importance of the continued forward 
movement of integration without fits and starts.
NATO
    The enlargement of NATO has been a parallel and equally important 
process for the stabilization of the region and the consolidation of 
peace. The accession of Albania and Croatia to full membership in NATO 
in April 2008 at the Strasbourg-Kehl summit was a landmark in security 
for the region.
    Unfortunately, Macedonia had fully qualified for membership but 
could not accede due to the veto from Greece. It is of the utmost 
importance for Macedonia and the region as a whole that the name issue 
between the two countries be resolved after 18 years in the shortest 
possible timeframe because it is not aiding the Euroatlantic 
integration process, nor allowing Macedonia to begin negotiations with 
the EU. There are certain cautious signs that maybe 2010 could be the 
year in which there will be positive movement on this issue.
    The November 2006 acceptance of Bosnia-Herzegovina, Montenegro, and 
Serbia into the Partnership for Peace Program (PfP) was a judicious, 
although somewhat belated, decision. It helped foster further 
stabilization and greater security for the region.
    Montenegro has applied for and received a Membership Action Plan 
(MAP) in December 2009, while Bosnia-Herzegovina applied for a MAP in 
October 2009. It would be conducive to the further security of the 
region and in the interest of Bosnia's sovereignty and integrity were 
it to receive a MAP sooner rather than later. It is not without 
significance that Serbia is fully supportive of Bosnia's Euroatlantic 
aspirations and path.
    Serbia is a PfP member and will open its mission at NATO in the 
coming months, the Ambassador having already been appointed. Serbia is 
currently an exception to the rule of all countries in the region 
moving fully toward NATO membership. This is not surprising given the 
bombing by NATO in 1999. Irrespective, cooperation with NATO is intense 
and ongoing on all issues. The Serbian Armed Forces, as with others in 
the region, are adopting and complying with NATO standards. There is a 
vivid and lively debate in Serbian public opinion and civil society 
about the benefits and disadvantages of NATO membership. This open 
approach to an unresolved policy question is proof of its open-ended 
character. Serbia, in 2000, after the fall of Milosevic under the Prime 
Minstership of Zoran Djindjic, was fully in favor of joining NATO and 
stated this in official documents. This policy was then halted and a 
policy of neutrality instilled under Prime Minister Kostunica.
    NATO is most importantly present in Kosovo through its KFOR (Kosovo 
Force) mission. The NATO mission in Kosovo, which also involves non-
NATO countries, has now been brought down to 10.000.
    In Bosnia-Herzegovina, NATO handed over its mission to the EU 
mission EUFOR, which currently has 2,000 soldiers.
    It is important to note that bilateral military relations between 
all of the countries of the region and U.S. defense and military 
institutions are developing in a positive way. For example, in Serbia, 
Minister of Defense Sutanovac made his first official visit to the 
Pentagon in the fall of 2009, followed by a visit of the Serbian Chief 
of Staff General Miletic rapidly thereafter. Admiral Mullen made a 
visit to Serbia, and military cooperation with the Ohio National Guard 
has been outstanding by all counts.
                  regional cooperation--key indicator
    If the recent reopening of the railway connection between Belgrade 
and Sarajevo is anything to go by, then it is clearly there are 
positive developments in the region.
    Regional cooperation has been ongoing at all levels. It has been 
substantive and varied over the past 10 years and has not seriously 
suffered from the passing political surface tension created by a number 
of situations related, in particular, to issues of the recognition of 
Kosovo's independence by countries neighboring Serbia. Economic 
relations have been enhanced, mutual investments have been made across 
borders, and visits of and cooperation between governmental and 
nongovernmental actors has been constant.
    There has recently been a substantive political improvement in 
regional and bilateral relations within the Balkan region. For example, 
the understanding reached between Slovenia and Croatia last year to 
move toward resolving their border dispute, the election of President 
Ivo Josipovic in Croatia in February opening a new chapter in Croatian-
Serbian bilateral relations, the visa liberalization for Macedonia, 
Montenegro, and Serbia that came into effect in December 2009 to enable 
travel to Europe, and Serbia putting forward it's candidacy for the EU 
in December 2009 cementing its orientation to the EU--each has shown 
that the leaders and countries of the region want to move forward.
    Presidents Tadic and Josipovic have given a powerful show of what 
they have themselves termed ``European partnership'': a strong desire 
to move not only their own countries but also the entire region toward 
full stability and consolidated democracy. In a short span of time, 
they have already met twice in March for substantive meetings--once in 
Opatija, Croatia, and then 3 days later they joined each other on a 
panel at the Brussels Forum 2010 organized by the German Marshall Fund 
of the United States. They have charted a way forward demonstrating 
strong political will, determination, and commitment to resolving their 
outstanding bilateral issues. Both Presidents, as well as their 
governments, have also repeatedly and continually underscored their 
strong support to the integrity and sovereignty of Bosnia-Herzegovina.
    The Albanian Deputy Prime Minister and Minister of Foreign Affairs 
Ilir Meta made an official visit to Belgrade last month and reiterated 
Albania's interest in developing the closest possible relations with 
Serbia. President Tadic accepted an invitation to visit Tirana this 
year. Ilir Meta visited the south of Serbia, where a sizable community 
of ethnic Albanians who are Serbian citizens live. He said, while 
visiting with the Serbian Minister for Local Government, that Albania 
and Serbia would work together in helping better their existence.
    In a demonstration of Albania's good will toward enhancing close 
neighborhood relationships, the country permanently abolished the need 
for visas for Serbian citizens yesterday.
    All the countries of the region have been affected by the global 
economic crisis and this has raised awareness of the extent to which 
they depend on each other for enhanced economic activity, trade, and 
exchange. They also fully understand that only as a region are they 
economically significant on the world market.
    A trade fair that was opened for 2 days in the Bosnian city of 
Mostar by President Silajdzic and President Tadic of Serbia, as the 
special guest country of the fair, is a testimony to the awareness of 
the importance of regional economic and trade cooperation, particularly 
during globally difficult economic times. ``Nobody will invest in 
countries captured by the past but will in those facing the future and 
agreeable to the fact that we must rely on each other'' said Tadic at 
the opening.
    The fact that the Western Balkans have now been for several years 
part of a unified Central European Free Trade Agreement (CEFTA) which 
is a mechanism allowing for the free flow of goods has helped them 
weather the global crisis to a certain extent. They have not been hit 
as severely as some other countries.
    This does not mean that that growing unemployment, decline in 
economic growth, and loss of foreign direct investment has not caused 
serious difficulties, social pressures, and tensions ( in some 
countries more so than in others). Interestingly, remittances from 
abroad have remained at levels comparable to those in prior years, 
which has somewhat alleviated the strain. The governments of the region 
are struggling to cope, and to find ways to develop productive 
activities and enhance exports.
    The Regional Cooperation Center in Sarajevo, the legacy 
organization that followed the Stability Pact for Southeastern Europe 
(created in July 1999 in Sarajevo) has an important role to play in 
aiding a variety of efforts at the regional level. It is now in the 
process of defining its next 3-year strategy.
Fighting Organized Crime Together--Another Transatlantic Endeavor
    Another very positive development has been provoked by the 
realization that criminals ``cooperate'' across borders with the 
greatest delight. The tragic assassination of the editor in chief of a 
Croatian daily newspaper in downtown Zagreb that involved ``regional 
cooperation'' between Croatian and Serbian criminals made authorities 
aware that if they did not robustly reinforce their own cooperation and 
exchange of information, that there was a severe danger of organized 
crime delving ever more deeply into state structures.
    This new, intense cooperation produced effective results, including 
arrests of the assassins and organizers. There is now concerted talk of 
creating a regional center for fighting organized crime to be located, 
possibly, in Belgrade.
    Cooperation with U.S. agencies, in particular the DEA, and with 
British agencies over a longer period of time produced the dramatic 
capture of 2.5 tons of cocaine on a ship in mid-Atlantic. Yesterday, 
the prosecutor for organized crime presented an indictment against 
Darko Saric, the alleged crime boss, and 18 other people for criminal 
activities and money-laundering on a huge scale.
    Fighting organized crime and the trafficking of drugs, people, and 
weapons, only makes sense if tackled jointly in the region and 
globally. These challenges, that have their roots in the 
criminalization of the region that occurred during the conflicts of the 
1990s, will have to be dealt with in an intense manner with important 
human and intelligence resources. Again, the role and support of the 
United States has been extremely fruitful and significant in this area.
    Fighting global terrorism is also an important issue in which the 
region can give a valuable contribution.
Confronting the Past
    The consequences of the 1990s conflict will remain with us for many 
years to come. Justice is being conducted in domestic war crimes 
tribunals and at the International Court of Justice for the Former 
Yugoslavia (ICTY) in the Netherlands. But the work of society with 
itself in understanding and condemning what was done in its name will 
be a much longer process, as we know from other historical precedents.
    An important step was made on March 31 when the Serbian National 
Assembly voted in a Declaration condemning the massacre in Srebrenica 
in July 1995, calling upon the ruling of the International Court of 
Justice in The Hague that qualified Srebrenica as a genocide, 
expressing condolences and regret to the victims' families, condemning 
the fateful decision in the 1990s to use violence in resolving existing 
challenges, and reiterating the determination to arrest Ratko Mladic. 
This follows the presence of President Tadic in Srebrenica for the 10th 
anniversary of the genocide perpetrated there. The declaration was met 
with international approval. In Bosnia-Herzegovina itself, there were 
mixed appraisals but Suleiman Tlhic, leader of the main Bosniac party 
SDA, hailed the declaration and stated he would visit Belgrade soon.
    There is still much to be done. First and foremost Serbia must 
arrest Ratko Mladic and Goran Hadzic, the two remaining indictees of 
the ICTY. In November 2009, the chief prosecutor of the ICTY gave a 
positive assessment of Serbia's efforts and will most likely produce a 
similar report in June this year. Until these indictees are arrested, 
this chapter will not be able to be closed.
    Equally important, civil society organizations and journalists have 
been doing their part in contributing to these efforts at confronting 
the past and helping heal wounds that the conflicts created. One 
important effort is a regionwide project with civil society 
organizations from Croatia, Bosnia-Herzegovina, Serbia, and Montenegro 
called RECOM which intends to establish a regional process of truth 
commission work. Several meetings have already been held, the most 
recent one in Novi Sad last month. This initiative is directly 
supported by the European Union, among others.
    The renewed dynamic of overall cooperation heralds a new dawn in 
the Western Balkans.
                          remaining challenges
    The region, as compared to other parts of the world that have 
unresolved issues, fares relatively well. Peace has been achieved, 
stability is being reinforced, and a common awareness is arising about 
the need to champion each on the way forward.
    The region is small. It holds 20 million inhabitants. It will join 
an EU of half a billion citizens. In the words of an entrepreneur, it 
is a ``micro-region'' in global economic terms and can only fare in the 
global market if it links up its economic potential. Late Prime 
Minister of Serbia Zoran Djindjic used to say: ``We are only 
significant as a region of 50 million people in economic terms'' (he 
was speaking of the Balkans as a whole, including Romania and 
Bulgaria).
    Success for all--foremost for the citizens of the countries of the 
region, and then for all those around them, as well as for friends and 
allies, and for the United States and EU--is relatively close at hand. 
The final chapters of the unfinished business have to be written 
together.
    It is the region and its Euroatlantic movement that will ultimately 
cure the remaining ills. We already see this dynamic at work. It is 
just as with the fact of being geographically part of Europe. The 
effects of the EU are palpable in the way the region is conducting 
itself. There is bond of mutual responsibility of the aspiring Member 
States and of the Euroatlantic family to see the process of integration 
come to fruition.
    Nothing is simple or quick about this dynamic and thus 
determination and political will are essential.
    I wrote in my testimony to this committee on July 14, 2004: ``When 
domestic actors are incapable of solving a contentious issue and 
require a third party to mediate, then all parties become stakeholders. 
The crucial stakeholders are the domestic ones and unless they arrive 
at a solution based on compromise through negotiations then no solution 
will be found, or only half measures will be achieved. The lack of a 
solution in Cyprus, because one of the key communities was not on board 
with the proposed agreement, is an example of this, again all things 
being equal. [ . . . ] as in other similar/dissimilar seemingly 
``intractable'' conflict or post-conflict situations (Northern Ireland, 
Kashmir, Sri Lanka, Basque country, Israel-Palestine, etc.) the 
solution is in bringing the voices of moderation, pragmatism, and 
realism forward while blunting the arguments and basis of grievance of 
the extremists wherever they may be. The engaging of the dialogue is 
essential [ . . . ]. This long and arduous dialogue [ . . . ] should be 
resumed, reengaged, and broadened.''
    Bosnia-Herzegovina will need the commitment of its citizens and of 
its leaders to find it in themselves to move forward. They will have to 
take responsibility and realize that the rest of the region is moving 
and that they must not lag behind. An example of what is possible was 
given when the announcement of visa-free travel was announced last year 
for Macedonia, Montenegro, and Serbia. Suddenly, the Bosnian 
administration began fulfilling requirements of the EU ``visa roadmap'' 
bringing Bosnia close to getting a visa-free status during the course 
of the year and maybe even by this summer.
    The EU has clearly stated that until the Office of the High 
Representative is closed, Bosnia-Herzegovina cannot make its next step 
forward. This means that Bosnia needs to fulfill the remainder of the 
five conditions and two objectives.
    One cannot not help but recall the failure of the so-called April 
constitutional reform package in 2006, when everyone had accepted what 
was proposed except for one political party that impeded its passage in 
the Parliament of Bosnia-Herzegovina. Missed opportunities of that 
magnitude lead to the situation that we all find ourselves in today: an 
apparent impasse with jockeying of all political actors for pole 
position in the pending parliamentary elections in October 2010.
    It is thus unlikely that any agreement can be reached before then 
in Bosnia-Herzegovina. The unhelpful rhetoric from one or the other 
side is detrimental to the search for a compromise.
    The visit of Vice President Biden, made on behalf of President 
Obama, to the Western Balkans in May 2009 was of great importance, 
visiting Sarajevo together with then-High Representative of the EU 
Javier Solana, and also visiting Belgrade and Pristina. This was a 
strong message with a unified position of the United States with the EU 
on the future of the region.
    It was of the utmost importance that U.S. Vice President Joseph 
Biden reiterated the principle that no one was questioning the 
fundamental structure of post-Dayton Bosnia-Herzegovina, namely the 
bientity structure, but that a way forward for greater functionality of 
central government had to found. All things being equal, the example of 
Belgium could possibly both inspire and sooth the key political actors, 
in that it is possible to have a structure of two entities with all of 
their identity, rights, and prerogatives, and yet have a functioning 
government.
    Serbia and Croatia are among other guarantors of the Dayton 
Agreement. They have a key supportive role to play, along with the 
United States and EU, and they have been playing it.
    The continued recent involvement of the United States through the 
presence of Deputy Secretary of State James Steinberg during the so-
called (and temporarily failed) Butmir process, trying to help Bosnia 
to add a level of functionality to its central government so as to be 
able to make the next step to the EU, was a significant step in 
continuing U.S. commitment. Steinberg visited the region once again 
last week and this engagement and constructive concern has been well-
received in the region.
    Kosovo declared independence in February 2008. The presence of 
international organizations is and continues to be of the greatest 
significance. U.N. Resolution 1244 is still in vigor. The KFOR military 
mission acts under UNSC Resolution 1244 as does the OSCE mission.
    It has been 2 years in which an EU rule of law mission, EULex, 
numbering some 2,000 policemen, judges, prosecutors, and customs 
officials, has been in operation. Even though five EU Member States 
have not recognized the independence of Kosovo, they are all in 
agreement on the EULex mission.
    KFOR has said that it has reduced the number of troops on the 
ground after assessing that there was a degree of improvement in the 
security situation. Yet much needs to be done for the lives of all 
citizens, and particularly in the Serbian community in Kosovo.
    Kosovo, to date, has been recognized by 65 states, roughly a third 
of U.N. members. They are, however, the most important countries for 
the Euroatlantic integration of the region. A question has been put to 
the International Court of Justice (ICJ) by the U.N. General Assembly 
in 2009 and the ICJ is supposed to give its nonbinding opinion on 
whether Kosovo's unilateral declaration of independence was in line 
with international law. Whatever the opinion of the ICJ, and it will be 
significant for the practice of international law in similar complex 
situations, the situation on the ground will not change. The opinion of 
the ICJ will be an opportunity for Belgrade and Pristina to possibly 
move toward settling what remains unsettled and to work toward further 
stabilization and peace.
    President Tadic of Serbia has spoken of the need for Serbia to be 
part of the solution, a need for a more flexible approach to the 
challenge of Kosovo, about the year 2010 as a year in which a step 
forward in further stability and resolution of open issues is possible. 
He has spoken of the understanding and need for Pristina to be part of 
regional meetings, but under the label of Kosovo-UNMIK.
    Authorities in Pristina have, for their part, voiced a willingness 
to engage as good neighbors with Serbia.
    The two sides remain firm on principled positions: Serbia is clear 
that it will not recognize Kosovo's independence, while Pristina 
maintains the fact of its independent status. It has been clearly 
stated, though, that these principled positions have not impeded the 
way toward finding solutions to a number of existential issues.
    While both sides are committed to bettering the lot of ordinary 
citizens, and of the Serbian community in particular, there is space to 
move toward a framework solution of the outstanding issues. What that 
will be it is hard to say at this juncture. One can detect signs of a 
willingness to address what remains unresolved and to look for closure.
    Europe has seen similar, although always different, historical 
examples of this. Europe and the international community have a tool 
box and many precedents. It can be surmised that given the EU and 
Euroatlantic orientation of all leaders involved, there will be a way 
because there is a will.
    A pragmatic and constructive approach which reinforces and 
underpins the positive domestic and regional dynamics that are at work 
is what is warranted at this juncture in the Western Balkans, given the 
above-stated clear commitments of all in the region to Euroatlantic 
integration and to resolution of all outstanding issues through 
peaceful means.
     unfinished business in 2004 versus unfinished business in 2010
    I was first honored to be invited to testify in the U.S. Senate 
Foreign Relations Committee on 14 July 2004. The title of the hearing 6 
years ago was ``U.S. Policy toward Southeast Europe: Unfinished 
Business in the Balkans.''
    Understandably, the unfinished business of 2004 is different in 
large part than that in 2010 and yet in other respects similar. The 
domestic challenges of strengthening democratic institutions, a 
democratic political culture, the rule of law, more effective 
governance and transparency, and the fight against organized crime and 
corruption have made headway but much remains to be done throughout the 
region. Each of the region's governments are now fully part of the EU 
integration process, which means pursuing deep-seated reforms in key 
sectors of society and preparing their economies to join a single 
market where competition will be fierce and unyielding. But as they all 
prepare entrance and then enter as full-members, they will benefit from 
the support of the so-called structural funds that help align the 
economies of the new countries with the rest of the EU nations.
    The EU itself will change in time and will grow to a Union of 
around 36 states.
    One of the key reasons why there is overwhelming support for EU 
integration in the public opinion of these countries is that citizens 
realize, without needing to comprehend the intricacies of the workings 
of the acquis communautaire, that there is simply a little more 
security, a little more certainty, and the possibility for somewhat 
more prosperity by being a member of the EU rather than remaining 
outside of it.
    The same goes for NATO integration in nearly all the countries. 
Metaphorically, citizens wish of their own free will to construct, as 
with the EU, a political, economical, and security roof which will make 
life somewhat more predictable after the devastating experience they 
had lived through during the 1990s.
    All this still requires, above all, the close concerted efforts of 
the vital transatlantic partners that are the United States and EU.

    Senator Shaheen. Thank you very much. I'm going to begin 
with you, Ambassador Volker, because I had a question about 
something you said in your testimony.
    You talked about confidence-building measures for 
Macedonia. What specifically are you talking about?
    Mr. Volker. Well, to give you a couple of examples, as you 
know, the airport in Macedonia is called Alexander the Great 
Airport. There have been acquisitions of some statues that are 
representative of what Greeks consider to be Greek historical 
figures, naming of highways or schools. These are things that 
irritate. They don't amount to a threat to Greece. They don't 
amount to a grab for territory, but nonetheless they're an 
irritant that's unnecessary and so to find some areas where you 
could do the opposite, make a gesture to Greece, and were 
respectful of Greece's cultural identity, Greece's history as 
well as Macedonian history.
    We're interested in being a good neighbor. Let's work on 
some things together. This is far apart from the name issue, by 
the way. This is just a matter of confidence-building in order 
to establish the relations to be able to deal with the name 
issue later on. I'm encouraged by the fact that the Prime 
Ministers have in fact met and will meet again. That's a good 
step.
    I think that for a Greek public, they need to have 
confidence that a Macedonia is going to be moving ahead, away 
from the symbolism, just as the Macedonians need to have 
confidence that Greece is prepared to finally cut a deal on the 
name rather than adopt a maximilist position as was articulated 
by the previous Greek Government.
    Senator Shaheen. Thank you. Senator Voinovich and the 
previous panel both mentioned the level of KFOR Forces in 
Kosovo.
    Given your former position as Ambassador to NATO, I'm sure 
you have particular insights into what might be important to 
maintain there when it comes to KFOR Forces.
    Do you think reducing forces would undermine stability in 
the region, and are you comfortable with the current level? As 
you look ahead to the ICJ decision, do you think we should be 
prepared to do more?
    Mr. Volker. Difficult question. Let me start with a more 
general point before addressing your point about force levels.
    What you need to have in Kosovo is confidence on the part 
of the population and acceptance on the part of the region 
where this country is going and you don't have that level of 
confidence right now and there are a number of factors.
    Part of it is the sense of fatigue that you talked about on 
the EU's engagement in the region and commitment to 
enlargement. Part of it is the fact that a number of EU 
countries have not recognized Kosovo and this gives Serbia 
encouragement in a sense to think maybe this is reversible, 
maybe we should be holding out, maybe partition is possible. So 
it creates an instability over that.
    There has been a lot of up and downs in the EULEX vision 
and the EU police presence and that with KFOR being the third 
line of defense behind first the Kosovo Security Services, 
second, EU-led police and then KFOR, people aren't confident in 
the first two and so KFOR is there as the guarantee, but it 
doesn't give people day to day confidence because KFOR doesn't 
do the direct policing.
    So there's still a lack of confidence and direction which, 
in my view, means we have to retain a substantial commitment 
and presence throughout all of Kosovo.
    Now that said, as you know, I've also worked on Afghanistan 
and if we had the density of forces in Afghanistan that we have 
in Kosovo, we'd be swimming in success. So I do recognize what 
our military leaders have said about the relative concentration 
of forces, relative to size of territory and population for 
Kosovo, compared to Afghanistan, and I do have a great deal of 
sympathy for that.
    But on the other hand, and as I mentioned in my testimony, 
my written testimony, this is an area where it's ripe for 
success. We don't have active conflicts. We have an educated 
population. We have a capable workforce. We have a regional 
economy that can get access to a global economy. We have a 
political process that we've invested in for some time.
    It would be a huge mistake to disinvest too quickly and not 
achieve the success that we could.
    Senator Shaheen. Thank you. Well, Mr. Vejvoda, you're 
clearly in maybe the best position to tell us what resolution 
to the Serbian-Kosovo issue might look like and how it could be 
accomplished and what a sustainable Kosovo might look like.
    Do you want to give us your insights on that issue?
    Mr. Vejvoda. Madam Chairwoman, that's a very tall order. I 
can only speak on behalf of myself and as a citizen of the 
region who tries to lean as far forward as one can and 
understand each other's sensitivities and preoccupations.
    May I just add, which I didn't say at the beginning, I've 
also submitted a written statement which is broader.
    Senator Shaheen. Thank you.
    Mr. Vejvoda. First of all, let me say that I think that 
partly the confidence that I have that we are not only moving 
in the right direction but that we will get to a resolution is 
the fact that all of the elected governments and Presidents in 
the region have committed themselves to European and Euro-
Atlantic NATO integration, barring Serbia for NATO because of 
the known issues, but even Serbia supports Bosnia's movement 
towards NATO, and I think that is extremely politically 
important for the issue at hand.
    Second, all the same elected democratic governments have 
restated that they will resolve any outstanding issues, the 
ones we are talking about, by peaceful, diplomatic, legal, and 
institutional means, and I think that sets the framework and 
the stage for these challenges that remain that we have been 
talking about.
    Now you asked me about Kosovo and I agree with what has 
been said. Kosovo has been recognized by 65-66 countries. 
That's a third of U.N. members. Two-thirds have not recognized. 
The process of recognition has been slower than many thought. 
That's partly due to the efforts of the Serbian Government but 
also because many countries have similar challenges. Spain, for 
example, and there's a bipartisan, if I can put a consensus in 
Spain, not to recognize.
    So there's nothing easy about the issue that we're talking 
about, but I think that the fact that President Tadic, for 
example, from the Serbian side has spoken about the need for 
greater flexibility for 2010 as the year of possibly beginning 
to address this issue more substantively, his statement at the 
Brussels Forum in March, the panel at which Senator Voinovich 
was, that, of course, Kosovo must be part of regional 
integration, all these are signals as from the Kosovar side.
    The Government in Pristina has talked about the willingness 
to be a good neighbor of Serbia and that means that both sides 
retain their principle positions, that Serbia does not want to 
recognize Kosovo, Kosovo is an independent state, and there's a 
movement toward understanding that there's something unresolved 
there. Until one recognizes each other, there's something 
unresolved and that creates space for dialogue, for resolution, 
for pragmatic solutions but that have a framework.
    Senator Voinovich mentioned the North of Kosovo. That's 
somehow unresolved. Now, we can take sides on how we see the 
North. The North is part of the territory of what Serbia calls 
the autonomous province of Kosovo and yet Pristina does not 
have control of the North. The North is under the control of 
NATO, of EULEX, of the U.N., and maybe there's space there to 
speak very neutrally and loosely to see what it is, what is it 
that the two sides could agree upon.
    Whether one calls that opening status talks or not, that's 
up for grabs, I would say. I definitely think that the opinion, 
the nonbinding opinion that will be given by the International 
Court of Justice is a sort of marker in time that may allow 
then the sides, Belgrade and Pristina, to move forward on this.
    What I think is very important to understand, there is an 
awareness, I think everywhere, starting with Pristina and 
Belgrade, that Brussels, the European Union, will not take in a 
new Cypress, a situation 40 years unresolved. That's a no-go 
and that's fully understood.
    But even more importantly, I think that the domestic actors 
in the region, again Belgrade and Pristina, understand that it 
is better for them to move forward to find closure and 
resolution because of the citizens, because Europe will not see 
to it if we remain difficult with each other on this, and again 
I think no one neglects the difficulty of finding that way 
forward. That is why again U.S. and European engagement is so 
important because it needs the confidence, it needs the support 
to foster the proper forward movement that already exists.
    There needs to be that, you know, creative support, finding 
ideas. There are--you know, I call this movement a European 
solution. Europe--this is not a new situation in Europe. You 
know, talk of Northern Ireland, of South Tirol, if you know 
your history a little better, the Schleznik Holschtein between 
Germany and Denmark. Europe has seen very difficult situations 
such as these. It has a toolbox. There are tools on the shelf 
that can be used.
    The main thing is that the parties are willing to sit down 
and engage and use the appropriate tools with the help of the 
allies that we want to be part of and that we are in fact part 
of already. Once you're a candidate, you are part of the 
European Union. The European Union spends--is the biggest 
donor--so much moneys, not to mention United States efforts and 
NATO presence in itself.
    So without having answered very clearly your question, what 
I'm trying to transmit to you is the atmosphere, the spirit and 
the leadership that now exists that wants to really bring this 
home. Whether it takes 1 year or 2 or 3 years, I don't think 
that anybody is thinking in terms of 10 years on this issue.
    Senator Shaheen. Thank you very much. I can see why you got 
your reputation.
    Senator Voinovich.
    Senator Voinovich. Yes. Real quick on Kosovo. You've kind 
of laid it out.
    First of all, the Court decision is not going to be 
binding. So what the reaction to that is going to be who knows. 
If it goes, it could end up in the Security Council again with 
Russia vetoing it and regardless of whatever happens here, the 
Metroviza thing's got to be worked out. That's the big issue, 
and again, as I mentioned earlier, I think that the sooner 
people start talking about all of the options that this happens 
or that happens, but it's still there. It's got to be--it has 
to be dealt with.
    The other issue is, is that, you've got somebody in Kosovo 
right now who went to The Hague and the witnesses weren't there 
and so he's back raising a lot of fuss and he's probably going 
to go--he's more of a nationalist, even though if you look at 
his record, he understands the reality but may try to take 
advantage of this in terms of a political campaign. If he 
becomes involved in a political campaign, then it becomes more 
difficult for people to sit at a table because it's now 
politics.
    So I just end on that, but I just think that the sooner 
people start to think about that, the better off everybody's 
going to be.
    The other issue is Bosnia. What is the model for Bosnia? 
You know, do you think that the model they're talking about is 
a realistic one? Is there another one that could maybe make it 
more easy for the people to come together and get the job done 
that we'd like to see interface with NATO and the European 
Union, some other creative thinking in that regard, and then 
the issue of the European Union and how important that is to 
try and emphasize that and to the future of the area.
    Mr. Vejvoda, you mentioned a couple of things that haven't 
been really talked about. One is organized crime and how it has 
a way of--it's an undertow that pulls down work toward the free 
market and in terms of reform of institutions and also the 
economy.
    I met with a group yesterday that have been in for 15 years 
and recommendations to our government about how could the USAID 
be more creative. When we were in Serbia, for instance, we had 
some goods in our room that came about as a result of new 
businesses that had been created in Serbia because they went 
out into the hinterland and worked with people to create an 
economy.
    In other words, the big issue here is what? Jobs, better 
economy, better wages and so forth. It seems to me that ought 
to be looked at more by our country.
    And then the IMF and the World Bank, other institutions 
there that could provide--I think--what was his name? George 
Soros had a fund that spent more--supposed to have been on 
democracy-building but at that time I know several years ago 
when we talked about it, they were talking about getting some 
people together to create a pool of money that could provide 
some loans.
    But I raised a lot of issues here, but I think the crime 
thing and, you know, when we talked to the President of Serbia, 
you've got to have cooperation from the other countries. Thank 
God Croatia and Serbia are working. What about the other ones 
that are there? What kind of cooperation are they getting in 
Kosovo or, say, Montenegro or some of the other places that are 
there?
    I hit a lot of things. I guess the last one is how do you 
feel about the recommendation that we got from everybody and 
that was visa waiver and MAP before the election?
    Sorry, Madam Chairman.
    Senator Shaheen. And we only have 10 or 15 minutes. So I 
know you could probably go on all afternoon on those.
    Mr. Vejvoda. OK. I'll try and be telegraphic, Madam 
Chairwoman.
    Let me start out by saying that why is this Serbia and 
Croatia so important. Historically, those of you who know the 
region of Southeast Europe, historically from the 19th century, 
this relationship constituted the backbone of the Southern 
Slavic/Southeast European region, and when relations between 
Serbia and Croatia were positive, the whole region somehow also 
was pulled by this positive relationship.
    This is particularly true for Bosnia and Herzogovinia that 
is encircled by Croatia and Serbia geographically. These two 
countries are guarantors of the Dayton and Paris Peace Accords 
and they have a crucial role to play, for example, here, but 
they're also economically the strongest countries in what 
entrepreneurs say is a micro region.
    We are a region of 20 million people. This will be a drop 
in the water of the bucket of the \1/2\ billion European Union 
member citizens, but a very important region because it is 
unfinished European post-Second World War peace business and 
that is why if there we have a positive movement, I think it 
will actually affect, it will have a pulling effect on the rest 
of the region, and I would say on Bosnia and Herzogovinia.
    We have seen this with the visa waiver effect. As soon as 
the announcement was made that Montenegro, Macedonia, and 
Serbia would get a visa waiver, suddenly Bosnia kicked into 
gear and began doing the roadmap conditionality and hopefully 
they will get the visa waiver regime by July and hopefully MAP. 
As I said, I think many of us strongly believe that this is 
very important for the security of the region itself.
    All countries clearly advance at their own pace. This is 
the rule in the European Union, but it is not good if anyone 
falls behind and I think that's where a lot of preoccupation in 
particular at this moment with Bosnia and Herzogovinia and 
clearly with Kosovo equally, although Kosovo has been clearly 
given a signal from the European Union that it also has its 
path. Commissioner Stephen Fuller, Katherine Ashton and others, 
in their visits to the region, not to mention the United 
States, have repeated this.
    But these issues, whether we're talking about Kosovo or 
Bosnia-Herzogovinia, and I think you both mentioned and Senator 
Voinovich in particular, we're really talking not about 
floating islands in a global international agenda that have to 
be solved. This is directly related to jobs and foreign direct 
investments, and I think when I speak about the democratically 
elected leaders, they are fully aware that they have to create 
jobs and, in particular, in a situation of global economic 
crisis.
    In fact, the region has become aware how mutually dependent 
we are. We have, as a region, survived because of the 
interregional trade. We have CEFTA, the Central European Free 
Trade Agreement, strangely called, but now basically in 
Southeastern Europe. This is very, very important because it 
creates the framework for what in fact will be our situation in 
a single market in Europe.
    But as I said, this Trade Fair in Mostar is a small example 
of how the entrepreneurs are in fact pushing the political 
leaders to open up, to invest. There are many mutual 
investments in the region, some in some directions more than in 
others, but to your point about USAID, USAID sponsored 15 
small- and medium-sized enterprises from Serbia to be present 
at this fair in Mostar.
    So again, the donor work, just as the political work, of 
the United States is extremely important to help because there 
are no real financial resources in the region to create jobs. 
We need foreign direct investments and this has been a rather 
dire period since the global crisis kicked in.
    I would say, finally, that the economy is absolutely 
crucial at this moment. The region has fared rather well 
compared to other parts of the world and some other European 
countries. I think this is in part due to the catastrophe of 
the 1990s where we paid a huge price. So there were more 
conservative policies in macroeconomic stability that were run 
through the region. This allowed us to weather the crisis all 
together, but again I think just because we had this terrible 
experience all together and, of course, some paid a higher 
price than others, nobody wants to go there.
    The citizens, first of all, they want normalcy. They want a 
return to a somewhat more secure and predictable life with 
somewhat more prosperity and that is why we have strong 
majorities of public opinion who want to join the European 
Union and NATO in this region, and I think the constructive 
support coming from the Transatlantic Partnership that is the 
United States and the EU is cardinal to seeing this brought to 
a safe haven that are the memberships in these two 
organizations.
    Mr. Volker. If I may just offer a few brief comments on 
some of the issues. I won't cover everything.
    First off, I think, starting with the issue of the status 
of Kosovo and status of Metroviza that you raised, I think what 
we do not have right now is a sense of inevitability. This is 
still very much open in the minds of Serbia, in the minds of 
people in Metroviza, and as a result, there's not really a 
willingness to negotiate on terms.
    How do you protect the people of Metroviza? How do you 
guarantee Serb patrimony? If the whole issue is still seen to 
be on the table, then it's hard to get to a negotiation of what 
the right protections are. So I think to some degree perhaps 
the Court case can help. Certainly the European Union can help. 
We need to establish a sense that this--it is going to be a 
fact, that Kosovo is going to be an independent state.
    Secondly, I think it would be a mistake to try to put 
Serbia in a corner and insist that they recognize in a legal 
formal way this independent state. That's just not going to 
happen any time soon.
    I think it is quite possible for Serbian leadership, 
Serbian people to accept a fact on the ground, but not to be 
made as a matter of principle to say, yes, we endorse this.
    Senator Voinovich. Let me interrupt. It seems to me that 
just recently, we have now started to work with the Kosovars to 
talk about Metroviza. We have the grand plan, the United States 
has, and from my perspective, I don't think that's smart.
    We've left it alone for a long time because we know if we 
stuck our stick in there, we'd have a hornet's nest. So 
everything's kind of quieted down and they're getting along. 
You've got South meets the North. But now, like the United 
States right now, we've got a new idea about how this is going 
to be and I'd just like your reaction.
    Maybe we ought to cool it on this thing until some of these 
other things are worked out before we start getting in there 
and pushing things.
    Mr. Volker. Well, I think you're raising an issue that I 
sympathize with, as well, which is, if you try to force people 
on a position of principle, you're going to stir up reaction to 
that, antibodies to that, that are going to give you trouble.
    What we need in talking about the long term of Kosovo, 
rather than insisting on Serb recognition, what I think you 
could have agreement on is that both sides want to see both 
Serbia and Kosovo integrate into a larger whole, into a region, 
into a European Union.
    I wonder if the parallel of Cypress is really a good 
parallel. Maybe the answer with Cypress would have been if you 
had Cypress and Turkey at the same time, you wouldn't have the 
same problem and maybe that's a way to look at that parallel 
instead.
    But I do think that stirring up the issues of principle 
when you can instead make progress on issues of practice is 
something that we should be very concerned or thoughtful about.
    A few other points on issues that you raised. I do think 
visa access is terribly important because that is what helps 
give the people of the region a vision for where they're going, 
what kind of society are they going to live in, what is going 
to be their relationships, what is it like in the other 
countries that they visit, and the ease of access. It's a 
signal about being a part of Europe and it is something that 
can inspire people to saying this is where we want to see our 
country end up. So I do think that's terribly important.
    I spoke about MAP earlier for Bosnia and just on the issue 
of Bosnia where you had talked about the model, is this the 
right model or the wrong model, again a very difficult 
question.
    Ultimately, the Dayton Accords were tremendously important 
in order to stop the war, but what they did is they stopped the 
conflict in place and they didn't really give us the ability to 
have a full settlement and they gave us time and political 
process that could be used to create a settlement. In fact, it 
hasn't turned out that way.
    So I don't think that the institutions as they exist are 
going to work in the long term. However, I don't think you can 
agree today on any changes to these institutions because they 
will be seen by one side or the other as damaging their 
particular interests. It's going to advantage someone and hurt 
someone else.
    So I think the first step, which is what we're doing, is 
try to make the institutions work and insist that the parties 
there do everything possible to make them work and that should 
get us back to a place where we can talk about more structural 
reforms that will need to be made for Bosnia to be sustainable 
in the long term.
    Mr. Vejvoda. If I may, Madam Chairwoman. At a conference in 
Dubrovnik, Croatia, the Croatian summit last July, at the end 
of a long day of discussions along these questions, someone 
raised their hand. It was the Irish Minister for European 
Affairs, and he said, ``I don't know the first thing about the 
Balkans but I've been listening very carefully and I recognize 
very many similarities,'' and he said, ``Look. We understood we 
could keep to our principle positions and yet slowly move 
forward and find the moment of the Good Friday Agreement and 
then 10 years later Jerry Adams and EM Paisley Act. He's 
sitting down without shaking hands at the same table.''
    I think, to put it in a nutshell, that's the model and I 
think Ambassador Volker is absolutely right. Nobody should be 
forced to do anything at this moment to relinquish their 
principle position. That is why I'm talking about the spirit of 
openness that I detect on both sides to understand that we need 
to move to resolving it and without putting any substance on 
resolving, but there needs to be a framework. It involves 
practical things like electricity, like, you know, customs and 
who the judges and prosecutors will be, but there must be 
something at the end where somebody signs something on the 
dotted line or doesn't.
    There's somehow a resolution which has a framework and no 
one goes home totally defeated. No one goes totally the winner. 
This is not a zero-sum game, and I think--and again, Ambassador 
Volker put it right. Serbia should not be put in a corner nor 
should Kosovo, Pristina, you know, be forced to relinquish on 
something they believe.
    Because this is a European space, I think we can move 
forward on this and on Bosnia-Herzogovinia, without going into 
the long and deep history, this is a very particular case, but 
remember we do have, all things being equal, a country in 
Europe called Belgium that has two entities, that has a 
capital. Yes, deep history, much richer country, traditions. It 
is the capital of Europe, you know. Billions are flowing in 
because of the administrators, not to mention the Eurocrats who 
sort of pay high rents there, but I think it's a model worthy 
to be looking at.
    During the Brussels Forum, I spoke with some European 
officials. They said, oh, maybe we'll commission a study to see 
how, you know, Belgium came to be. I think, I think that we 
have had democracy in Bosnia and Herzogovinia for 15 years now. 
There have been elections. It has not delivered what, you know, 
everyone desired, normalcy to the people, economic progress, 
but, on the other hand, not one single soldier of the 
International NATO Force was killed there, you know, and need 
not put it into comparison with things further eastward.
    There are many things going for finding the resolution. We 
need patience at a time where we're all impatient to see 
success in the unfinished business and that is why we have to 
stay the course. We, of course, in the region have to do the 
hard work of change, of democratic reform, of judicial reform, 
rule of law. We know that that's the only way we will advance, 
but we need you to be there for us to support this forward-
movement and to actually incite at certain moments, whether 
it's putting the heat on, as Ambassador Volker says, or any 
other metaphor.
    I think it's basically working with your friends to incite 
them to continue where they've already begun walking.
    Senator Shaheen. Thank you, both, very much for your 
insights. I know we could go on much longer, but a vote has 
been called. So Senator Voinovich and I are going to have to go 
vote.
    Thank you, all, very much for joining us and we look 
forward to your continued advice and counsel.
    The hearing is adjourned.
    [Whereupon, at 4:30 pm the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

             [From the Wall Street Journal, Mar. 15, 2010]

                     Unfinished Work in the Balkans

  on the cusp of a europe whole and free, now is not the time to risk 
                hard-earned gains in southeastern europe
                (By Jeanne Shaheen and George Voinovich)
    After two devastating world wars on the European continent, the 
United States and its trans-Atlantic allies made a difficult but strong 
commitment to build a Europe that is whole, free, and at peace. This 
historic endeavor has not been easy, and it has come with extraordinary 
effort, time, and cost. Although the U.S. has made tremendous progress 
over the past 60 years, the job is not yet finished.
    The Western Balkans remains the missing piece of the puzzle in 
Europe, and its integration into trans-Atlantic institutions remains a 
critical and elusive goal. Based on our meetings with leaders in the 
region last month, when we visited Croatia, Bosnia-Herzegovina, Kosovo, 
Macedonia, and Serbia, we believe it is vital that the U.S. and Europe 
renew their commitment to this joint vision of a united Europe.
    It is only 15 years now since Bosnia was delivered from war, and 
only 10 years since NATO bombs stopped falling on Belgrade. In that 
short time, the region has taken momentous steps away from its troubled 
history. Most countries have now charted a realistic path for future 
membership in NATO and the EU. But while the U.S. and Europe are on the 
cusp of realizing their vision and reaping the benefits of their 
significant investments in this region, this is an extremely sensitive 
time in the Western Balkans. None of the backers of this project can 
let their attention drift or their commitment fade.
    The situation in Bosnia remains a serious concern. To rise above 
its recent past, Bosnia needs to undertake some significant political 
and constitutional reforms. But politicians continue to use fear and 
division as a tool for consolidating political power--no matter the 
cost to their country. In Sarajevo, we sat down with a group of 
university students, and it was clear that the next generation of 
Bosnians have little confidence in their political leaders to meet the 
country's considerable challenges. It was disheartening to hear their 
unanimous distrust of Bosnia's politicians and their pessimism about 
the leadership's ability to move beyond the petty differences of the 
past.
    With an upcoming election in the fall, Bosnia's current political 
situation does not bode well for real change in the near future. 
However, we believe that a well-timed expression of support from the 
Euro-Atlantic community could push the debate in the right direction in 
the months before the election. A commitment to bring Bosnia into the 
Euro-Atlantic sphere through the NATO Membership Action Plan process, 
along with a European Union visa-liberalization agreement, could 
undermine those political leaders exploiting fear and uncertainty and 
who would poison the well of European integration. A strong signal now 
could remind the people of Bosnia that their future is in Europe, and 
that they should choose leaders willing to bring them there.
    Aside from Bosnia, the situation between Kosovo and Serbia remains 
a possible flash-point for the region. There is little doubt that the 
dream of a united Europe will not be realized without Serbia playing a 
leading role in the neighborhood. To its great credit, the Serbian 
leadership has demonstrated its commitment to European institutions. 
However, differences over Kosovo remain a stumbling block for continued 
advancement. Though Belgrade and Pristina have mutual disagreements, 
it's hardly unrealistic to hope for a creative, pragmatic, and 
sustainable solution that best protects and improves the lives of all 
ethnicities throughout the region.
    One key contribution the trans-Atlantic alliance has made is to the 
region's ongoing security. Since 1999, NATO troops in Kosovo have 
played an integral role in establishing a secure environment there. We 
heard from leaders across the Western Balkans, without exception, that 
the situation remains too uncertain for the force to be withdrawn or 
reduced. Although we understand the need for additional peacekeeping 
forces around the world, now is not the time to risk hard-earned gains 
in southeastern Europe.
    Outside the region, Brussels will play an integral role in the 
coming months and years. The perception of so-called ``enlargement 
fatigue'' from the EU is a real danger. The worry that there will be no 
viable EU membership path for the Western Balkan countries could 
undermine their reform agenda, and stop the positive momentum we have 
seen in recent years. If the U.S. is to help keep these countries 
moving towards European integration, we will need high level support 
from Brussels and our European allies.
    It is incumbent upon all of the countries in southeastern Europe to 
play a constructive role in helping the region as a whole move forward. 
All of these countries need to recognize that they are all connected. 
None of them will find success and progress if any one of them are left 
behind. They have a shared history, and they all will have a shared 
future tied to Europe.
    The countries comprising southeastern Europe are a vibrant 
kaleidoscope of histories, cultures, and religions, a mosaic of 
differences that has in the past been hijacked by political leaders and 
exploited to bring about division and war. The people of this region 
have an opportunity to turn the page on a difficult past and embark on 
a new chapter in their shared history. America and Europe have a chance 
to help them realize these dreams, but more importantly to realize our 
own mutual vision of a united, peaceful Europe. We have invested so 
much in this effort. Now is not the time to lose sight of that vision.
                                 ______
                                 

 Responses of Hon. Philip H. Gordon, Assistant Secretary of State for 
  Europe and Eurasian Affairs, to Questions Submitted by Senator John 
                                 Kerry

    Question. In your testimony, you stated that two primary obstacles 
presently preventing Bosnia and Herzegovina from entry into a NATO 
Membership Action Plan (MAP) are continued disagreement among Bosnia's 
leaders on the dispensation of defense property and disposal of the 
country's unstable munitions and light weapons stockpiles. The Peace 
Implementation Council also has stated repeatedly that a decision by 
Bosnia's Government on defense property is one of the objectives that 
must be fulfilled before the closure of the Office of the High 
Representative (OHR).
    Other important issues that have affected Bosnia's progress toward 
NATO are the decisionmaking process on national security issues of the 
country's tripartite Presidency and related reforms to the country's 
council of ministers. Broader reforms to Bosnia's state institutions 
have also been raised in the context of NATO integration. A prospective 
country's ability to contribute to NATO missions and exercises remains 
a significant metric the alliance uses when considering a MAP.

  <bullet> What led to the prioritization of resolving defense property 
        and the undisposed munitions when formulating the requirements 
        of a MAP for Bosnia? Does the United States consider reforms to 
        Bosnia's Government and its contributions to NATO missions to 
        fall outside the consideration of granting a MAP?
  <bullet> Is the ``5+2'' conditionality for the closure of OHR 
        insufficient to incentivize Bosnia's leaders to agree on 
        defense property? Is the apparent addition of the prospect of a 
        MAP to incentivize a resolution on defense property a 
        recognition that the international community's conditionality 
        has opposite effects among the leaders of Bosnia's constituent 
        peoples?

    Answer. The issues of movable (surplus weapons and ammunition) and 
immovable (land, buildings) defense property have been pending 
resolution since the passage of the 2005 Law on Defense, which created 
the unified Armed Forces of Bosnia and Herzegovina. Both were key 
objectives identified by the Bosnian Government in its Individual 
Partnership Action Plan (IPAP).
    On April 14, the Bosnian Tri-Presidency agreed on a plan to destroy 
all of the country's surplus weapons and ammunition as well as to 
contribute up to 100 infantry troops in support of ISAF. We supported 
these decisions on their own merits, and also as an indication of the 
kind of decisions that Bosnia needs to be able to make to succeed in 
NATO's Membership Action Plan (MAP) process. However, immovable 
property issues remain unresolved. On this basis, allies agreed at the 
April 22-23 informal Foreign Ministerial in Tallinn to invite Bosnia 
into MAP, but to condition submission of its first Annual National 
Program on resolution of immovable defense property.
    We believe all parties in Bosnia continue to have a strong 
incentive to meet the ``5+2'' requirements, which includes resolution 
of defense property issues, for closure of the Office of the High 
Representative (OHR). The EU has made clear that Bosnia will be unable 
to achieve membership candidacy status until OHR has closed. All of the 
major political parties in Bosnia and the vast majority of Bosnian 
citizens have identified EU integration as a top priority.

    Question. Why did the recent U.S.- and EU-led negotiations at Camp 
Butmir on government reform and the closure of OHR come to a 
standstill? Every major Bosnian politician rejected the first U.S. 
package, which reportedly was offered on a ``take it or leave it 
basis.'' Later negotiations would also see the rejection of a second, 
negotiable, U.S. and EU package--why? Did the United States attempt to 
accomplish too much on the issue of reforming Bosnia's Government 
instead of focusing on fulfillment of the objectives and conditions for 
OHR's closure?

    Answer. After several rounds of meetings with all of the parties, 
including three visits to Sarajevo by Deputy Secretary Steinberg, it 
became clear that the parties were unable to make the necessary 
compromises to reach agreement. With the exception of SDA President 
Sulejman Tihic, the party leaders did not demonstrate the required 
flexibility during the talks. Several party leaders made clear to us 
that their views and willingness to compromise were affected by 
electoral considerations in advance of the October 2010 general 
elections.
    The 5+2 criteria for OHR closure were integral elements of the 
proposed package. While constitutional reform is not part of the 5+2 
agenda, some of the parties expressed concern about the functionality 
of the State after OHR closure and indicated that progress on 
constitutional reform would facilitate agreement on 5+2. Constitutional 
reforms also are needed for Bosnia to become a credible candidate for 
EU and NATO membership. Looking ahead, together with our EU partners, 
we will continue to foster dialogue with party leaders to maintain 
focus on reforms necessary for Euro-Atlantic integration, including 
constitutional reform, and promote a nonnationalist, issues-based 
election campaign.

    Question. What powers should OHR's eventual EU-only replacement 
have? Should a future EU representative have certain ``executive'' 
powers that the high representative currently exercises under Annex 10 
of the Dayton agreement? What would be the mandate of such a 
``reinforced'' EU special representative? Should some of OHR's 
executive powers be vested in Bosnia's domestic judicial system?

    Answer. The issue of the EU Special Representative (EUSR)'s role 
following the closure of the Office of the High Representative, as well 
as the High Representative's Dayton authorities post-OHR, remains under 
discussion in the Peace Implementation Council and within the EU. We 
have stressed to the EU the importance of ensuring the EUSR have 
sufficient authorities to maintain stability and facilitate cooperation 
among the Bosnians after OHR closes. In the meantime, we continue to 
support the OHR and its efforts to resolve the outstanding 5+2 
criteria, contribute to a positive election campaign and foster 
stability in Bosnia and Herzegovina ahead of the October elections.

    Question. Serbia's President Boris Tadic has made repeated 
statements in support of Bosnia's sovereignty and territorial integrity 
in compliance with the Dayton Agreement. Despite these statements, 
Republika Srpska leader Milorad Dodik continues to make worrying moves 
that hint of outright secession. How much influence does Serbia have on 
Dodik's actions? Are Dodik's threats credible or is he trying to 
position himself with his constituents and assume a maximalist position 
in future negotiations with other Bosnian leaders on the powers of the 
state?

    Answer. Serbia has publicly committed itself, as a signatory of the 
Dayton Accords, to uphold it and oppose any changes to the Dayton 
framework without agreement between Bosniaks, Croats, and Serbs. 
President Tadic has repeatedly made constructive statements to this 
effect and has emphasized Bosnia-Herzegovina's sovereignty and 
territorial integrity. In light of Serbia's historical ties to Bosnia 
and its European aspirations, Serbia can and should play an important 
role in assisting the parties to reach viable, long-term solutions that 
enhance Bosnia's stability and Euro-Atlantic integration. President 
Tadic and Foreign Minister Jeremic have engaged with Milorad Dodik and 
other parties on constitutional reform to encourage them to engage in 
real dialogue. We encourage the Serbian leadership to continue to play 
a constructive role on these issues.
    I look forward to working together with the Serbian leadership to 
encourage reforms and promote reconciliation in Bosnia-Herzegovina. We 
too remain committed to upholding the framework established by the 
Dayton Accords, strengthening State institutions, and maintaining the 
sovereignty and territorial integrity of Bosnia and Herzegovina. We are 
also determined, along with the EU and the international community, to 
protect the integrity of the Dayton Accords and State institutions 
against any attempts to undermine them.

    Question. The European Commission's Enlargement Strategy and Main 
Challenges 2009-10 report found that ``Montenegro will need to 
demonstrate concrete results regarding consolidation of the rule of 
law, particularly on judicial reform and the fight against 
corruption.'' In December 2009, NATO offered Montenegro a MAP.

  <bullet> A. What progress has Montenegro made in the fight against 
        corruption and organized crime? How did such progress affect 
        the alliance's decision to offer Montenegro a MAP?
  <bullet> B. Are you satisfied with Montenegro's cooperation with the 
        United States, the EU, Serbia, Croatia, and other countries in 
        the fight against narcotics and organized crime? How would you 
        characterize Montenegro's participation in the search for Darko 
        Sari?, who was recently indicted by the Serbian Prosecutor's 
        Office for Organized Crime and whom some allege is hiding in 
        Montenegro?

    Answer A. Montenegro, like other countries aspiring to join NATO 
and the EU, must meet the rigid membership standards of the two 
organizations. This means that Montenegro must demonstrate its capacity 
to fight organized crime and corruption and to bolster public 
confidence in its justice sector institutions. The Government of 
Montenegro recognizes the fight against organized crime and corruption 
as a key priority and is making significant progress in implementing 
its multiyear strategy to reform the judiciary and strengthen the rule 
of law, as demonstrated by the new Criminal Procedure Code and the 
creation of an interagency taskforce--supported by the President and 
Prime Minister--to fight organized crime and corruption. More work 
remains to be done, of course, but we believe Montenegro is on the 
right track, and the United States stands ready to help bilaterally and 
through Montenegro's cooperation with NATO.
    We are already helping Montenegro on this front through various 
assistance programs aimed at strengthening Montenegro's criminal 
justice system, establishing more transparency in its institutions, and 
expanding the role of civil society and the media in this effort. In 
fact, more than half our current assistance to Montenegro is for rule 
of law programs. As a participant in NATO's Membership Action Plan 
(MAP), Montenegro has set reform objectives across a broad spectrum of 
areas, including judicial and rule of law, and is working with the 
Alliance to implement them. In fact, we have tripled assistance to 
Montenegro in the areas of Democracy & Rule of Law in the last 3 years.

    Answer B. We continue to encourage Montenegro, Serbia, Croatia, and 
other countries in the region to cooperate with each other as well as 
with the United States and European Union in the fight against 
organized crime and corruption. We coordinate closely with our 
international partners in this effort, and we stand ready to help all 
of these countries as they strengthen their cooperation. Senior 
Government of Montenegro officials have issued public and private 
assurances that Saric will be arrested if located on Montenegro's 
territory.

    Question. The Maritime Analysis and Operations Centre (MAOC), based 
in Lisbon, Portugal, coordinates antinarcotics efforts with several EU 
Member States. The United States participates in MAOC through a joint 
interagency task force. What is MAOC's relationship with Montenegro? 
Does Montenegro adequately patrol its maritime borders to protect 
against the inflow of narcotics?

    Answer. Southern Europe has long been a conduit for illicit drug 
shipments destined for Western European markets. Montenegro is part of 
this traditional ``Balkans Route'' for Afghan heroin and, similarly, is 
a pathway for the growing trade in South American cocaine--including 
shipments transiting West Africa. To counter the surge in trafficking 
from Africa and South America, seven European Union Member States 
(France, Ireland, Italy, the Netherlands, Portugal, Spain, and the 
United Kingdom) developed the Maritime Analysis and Operations Center-
Narcotics (MAOC) in Lisbon, Portugal. The Center coordinates the aerial 
detection and monitoring and maritime interdiction operations of the 
participating nations while maintaining seamless coordination with USG 
counterparts.
    Montenegro is not a member of MAOC, nor does it have the capacity 
to perform aerial surveillance or maritime interdiction operations on 
the high seas. Nevertheless, the Government of Montenegro does 
participate in regional law enforcement coordination efforts in 
southern Europe. Bilaterally, the USG provides significant law 
enforcement assistance to the Government of Montenegro, including 
maritime border enforcement training. The Department of Defense has 
provided support for an electronic surveillance radar system to monitor 
ship traffic.

    Question. How do you think Serbia's Government will react to the 
nonbinding opinion by the International Court of Justice (ICJ) on the 
legality of Kosovo's 2008 declaration of independence? Do you think 
Serbia's pro-Western government is seeking a favorable opinion so 
Serbia can proceed with EU integration, or might the government use the 
opinion to seek an agreement on Kosovo's status? What could such a deal 
look like? If territorial discussions involving Serbia and Kosovo are 
conducted on the basis of seeking mutual agreement between two 
sovereign states, would an agreement produced by such a process set a 
dangerous precedent elsewhere in the region?

    Answer. We have made quite clear to the Serbian Government our 
position firmly opposing new status talks or any partition of Kosovo. 
With Kosovo's independence in February 2008, the final chapter in the 
breakup of the former Yugoslavia was closed. Kosovo's status is 
irreversible and its borders are settled. Attempts to foment partition 
or to divide the Balkans along ethnic lines could endanger peace and 
stability in Kosovo and the region. Kosovo has established a 
multiethnic democracy and a progressive Constitution, and is committed 
to governing itself in a way that is responsive to all its citizens.

    Question. In December 2009, Serge Brammertz, chief prosecutor of 
the International Criminal Tribunal for the Former Yugoslavia (ICTY), 
stated before the U.N. Security Council that Serbia's cooperation with 
the tribunal ``has continued to progress'' and that ``Serbia must 
maintain these efforts with the clear objective of apprehending the 
fugitives,'' which includes ICTY-indicted war criminal Ratko Mladic. 
Has Serbia maintained these efforts since December 2009? Do you expect 
Brammertz to find Serbia in full compliance with the ICTY when he next 
reports to the U.N.? How would such a report affect Serbia's EU 
negotiations with or without the apprehension of Mladic?

    Answer. The current government, led by President Tadic, has made 
progress on cooperation with the ICTY, including the July 2008 arrest 
in Belgrade of former Bosnian Serb leader, Radovan Karadzic. Karadzic 
is now on trial in The Hague. The Serbian Government has declared ICTY 
cooperation, including the capture and transfer to The Hague of 
remaining war crimes fugitives, to be one of its top priorities. 
President Tadic has directed his National Security Council to make the 
hunt for fugitives its primary focus. While ICTY Chief Prosecutor Serge 
Brammertz reported in December 2009 that he was satisfied with the 
current level of Serbia's cooperation, he ``insist[ed] that Serbia 
maintain these efforts in order to achieve additional positive 
results,'' and we support this position. Of particular importance, 
Belgrade must ensure that the two remaining ICTY fugitives, former 
Bosnian Serb General Ratko Mladic and former Croatian Serb leader Goran 
Hadzic, are apprehended and transferred to The Hague. Our expectations 
remain that Belgrade will continue to focus on cooperation with the 
ICTY and that the remaining indictees will be arrested and transferred 
to The Hague.

    Question. Please assess Russia's relations with Serbia and Croatia. 
Is Russia a historical ally of Serbia or is their current partnership 
based on energy, investment, and common cause over Kosovo? What are 
Russia's intentions in its recent acquisition of and agreements with 
Serbian and Croatian energy companies? How might Croatia's 2010 signing 
of an agreement of intent to join Russia's South Stream pipeline 
project affect the Nabucco project and diversification of Europe's 
energy supply?

    Answer. Russia can claim historical ties and ongoing bilateral 
cooperation with both Serbia and Croatia. We support healthy, balanced 
relationships with Russia for Serbia and Croatia, along with good ties 
to other European neighbors. Serbia and Russia have active economic 
relations which have faltered somewhat due to the global economic 
crisis. Russia is Serbia's second largest trading partner (after 
Germany), and has agreed to provide Serbia an approximately $200 
million loan for budget support. The most significant area of defense 
cooperation between Serbia and Russia is maintenance and training for 
the Soviet-era planes and other military equipment that Serbia still 
uses. The respective Ministries of Defense maintain a regular dialogue, 
and Serbia periodically sends students to Russian military academies. 
Russia has conducted several high-profile de-mining operations to 
remove unexploded ordnance (UXO) dating from the Kosovo conflict. 
During President Medvedev's October 2009 visit to Belgrade, the Serbian 
Ministry of Interior and the Russian Ministry of Emergency Situations 
agreed to establish a regional humanitarian crisis response center in 
Nis, Serbia that would involve other Balkan countries and be dedicated 
primarily to fighting forest fires.
    Energy issues are a major focus of Zagreb's engagement with Moscow. 
Russia remains a major supplier of Croatian gas imports, and Croatia 
and Russia are currently in discussions on an extension of gas supply 
contracts. Russian exports of gas are likely to be a longstanding 
feature of Croatia's energy supplies, but the Croatian Government is 
well aware of the benefits of having diversity in energy sources, as 
reflected by their plans for an LNG terminal and the nearly complete 
gas interconnector with Hungary. With regard to South Stream, various 
countries have signed MOUs with Russia on this pipeline project. We do 
not oppose South Stream, but we do have some questions about its 
economic viability. We do believe that Nabucco will positively 
contribute to Europe's energy security.

    Question. Please assess Turkey's foreign policy in the Western 
Balkans, especially toward Serbia, Bosnia and Herzegovina and Kosovo. 
Are ongoing Turkish initiatives in the region consistent with 
traditional Turkish foreign policy toward Europe, or more similar to 
Turkey's so-called neo-Ottomanism in the Near East and elsewhere? How 
has Turkey facilitated rapprochement between Bosnia and Serbia? How 
does Turkey's involvement in the region affect its EU membership 
aspirations?

    Answer. Turkey is a strategic partner and NATO ally of the United 
States. The Government of Turkey's foreign policy of ``zero problems'' 
with neighbors has served to complement our efforts in many areas, 
namely Afghanistan and Iraq as well as the Balkans.
    As part of its efforts to enhance regional cooperation, increase 
trade, and advocate the region's Euro-Atlantic integration, Turkey is 
focused on the Balkans and, in particular, Bosnia-Herzegovina. Turkey 
strongly advocated in favor of NATO's decision to grant Bosnia entry 
into the Membership Action Plan at the April NATO Informal Foreign 
Ministerial in Estonia. In addition, Turkey helped establish trilateral 
mechanisms with Serbia and Bosnia as well as with Croatia and Bosnia to 
further regional cooperation, with regular meetings held since October 
2009. The Turkey-Bosnia-Serbia trilateral process helped facilitate the 
normalization of relations and exchange of Ambassadors between Bosnia 
and Serbia. Turkey's chairmanship of the South-East European 
Cooperation Process (SEECP) until June 2010 is another example of 
Turkey's constructive role in the region. Turkey has also recognized 
Kosovo.
                                 ______
                                 

 Responses of Hon. Alexander Vershbow, Assistant Secretary of Defense 
 for International Security Affairs, to Questions Submitted by Senator 
                               John Kerry

    Question. In your testimony, you stated that two primary obstacles 
presently preventing Bosnia and Herzegovina from entry into a NATO 
Membership Action Plan (MAP) are continued disagreement among Bosnia's 
leaders on the dispensation of defense property and disposal of the 
country's unstable munitions and light weapons stockpiles. In your 
prepared remarks, you wrote that ``[t]here are indications that a 
solution...may finally be at hand'' to the issue of the un-disposed 
armaments. The Peace Implementation Council also has stated repeatedly 
that a decision by Bosnia's government on defense property is one of 
the objectives that must be fulfilled before the closure of the Office 
of the High Representative (OHR).
    Other important issues that have affected Bosnia's progress toward 
NATO are the decision-making process on national security issues of the 
country's tripartite presidency and related reforms to the country's 
council of ministers. Broader reforms to Bosnia's state institutions 
have also been raised in the context of NATO integration. A prospective 
country's ability to contribute to NATO missions and exercises remains 
a significant metric the alliance uses when considering a MAP.
    What led to the prioritization of resolving defense property and 
the un-disposed munitions when formulating the requirements of a MAP 
for Bosnia? Does the U.S. consider reforms to Bosnia's government and 
its contributions to NATO missions to fall outside the consideration of 
granting a MAP?
    Is the ``5+2'' conditionality for the closure of OHR insufficient 
to incentivize Bosnia's leaders to agree on defense property? Is the 
apparent addition of the prospect of a MAP to incentivize a resolution 
on defense property a recognition that the international community's 
conditionality has opposite effects among the leaders of Bosnia's 
constituent peoples?

    Answer. The Department of Defense concurs fully with the answer 
provided to this question by the Department of State (See above).
    The remark that a ``solution.may finally be at hand'' referred to 
the anticipated Bosnian Tri-Presidency decision on the disposal of 
movable property (surplus weapons and ammunition). That decision, 
issued on the evening of April 14, approved the destruction of all of 
Bosnia's surplus light weapons, high risk ammunition, mines and 
explosives.

    Question. Why did the recent U.S.- and EU-led negotiations at Camp 
Butmir on government reform and the closure of OHR come to a 
standstill? Every major Bosnian politician rejected the first U.S. 
package, which reportedly was offered on a ``take-it-or-leave-it 
basis.'' Later negotiations would also see the rejection of a second, 
negotiable, U.S. and EU package--why? Did the U.S. attempt to 
accomplish too much on the issue of reforming Bosnia's government 
instead of focusing on fulfillment of the objectives and conditions for 
OHR's closure?

    Answer. The Department of Defense concurs fully with the answer 
provided to this question by the Department of State (See above).

    Question. In your testimony, you stated that Serbia eventually must 
``choose'' between its EU aspirations and its opposition to Kosovo's 
independence, and that its attempt ``to do both is unsustainable.'' 
However, Vice President Biden stated in May 2009 that the U.S. and 
Serbia ``can agree to disagree'' on the issue of Kosovo and that the 
U.S. ``will use our influence, our energy and our resources to promote 
Serbia's Euro-Atlantic aspirations.''How do you reconcile your 
statements with the Vice President's remarks? Do your remarks represent 
the position of the Department of Defense? Do they signal a departure 
from current U.S. policy?

    Answer. My statement that Serbia cannot both ``move toward the 
European future it says it desires'' and ``be mired in an obsession 
with the past'' is neither a departure from current U.S. policy nor a 
contradiction of Vice President Biden's statement. While the U.S. does 
not expect Serbia to recognize Kosovo independence, we want to see 
Serbian leadership cease its attempts to undermine stability in Kosovo 
and work with Pristina, the United States and the European Union to 
find pragmatic solutions that would improve the life of all Kosovo 
residents. This is essential to Serbia's EU future - the EU stated in 
its Partnership Document with Serbia that one of its key priorities for 
engagement is that Serbia ``cooperates constructively on matters 
relating to Kosovo.''

    Question. In your testimony, you stated that ``[f]ighting organized 
crime and corruption remain key challenges for Montenegro as it 
progresses on its Euro-Atlantic integration path.'' The European 
Commission's Enlargement Strategy and Main Challenges 2009-2010 found 
that ``Montenegro will need to demonstrate concrete results regarding 
consolidation of the rule of law, particularly on judicial reform and 
the fight against corruption.'' In December 2009, NATO offered 
Montenegro a MAP. What progress has Montenegro made in the fight 
against corruption and organized crime? How did such progress affect 
the alliance's decision to offer Montenegro a MAP?Are you satisfied 
with Montenegro's cooperation with the U.S., the EU, Serbia, Croatia 
and other countries in the fight against narcotics and organized crime? 
How would you characterize Montenegro's participation in the search for 
Darko Saric, who was recently indicted by the Serbian Prosecutor's 
Office for Organised Crime and whom some allege is hiding in 
Montenegro?

    Answer. The Department of Defense concurs fully with the answer 
provided to this question by the Department of State (See above).

    Question. The Maritime Analysis and Operations Centre (MAOC), based 
in Lisbon, Portugal, coordinates anti-narcotics efforts with several EU 
member states. The U.S. participates in MAOC through a joint 
interagency task force. What is MAOC's relationship with Montenegro? 
Does Montenegro adequately patrol its maritime borders to protect 
against the inflow of narcotics?

    Answer. The Department of Defense concurs fully with the answer 
provided to this question by the Department of State (See above).

                                  <all>

</pre></body></html>
